<html>
<title> - HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 20, 2002

                               __________

                           Serial No. 107-223

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

88-193              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Deputy Staff Director
                        Chris Barkley, Assistant


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 20, 2002..................................     1
Statement of:
    Dalton, Patricia, Strategy Director, General Accounting 
      Office.....................................................   112
    Gardner, Major General Gregory, Kansas Adjutant General......     5
    Hainje, Richard, Director, Region VII, Federal Emergency 
      Management Agency..........................................   139
    Jaax, Jerry, associate vice provost for research compliance, 
      university veterinarian, Kansas State University...........    50
    Knowles, Terry, deputy director, Kansas Bureau of 
      Investigation..............................................    61
    Lane, James, undersheriff, Ford County Sheriff's Department..    73
    Maynard, Otto, president, chief executive officer, Wolf Creek 
      Nuclear Operating Corp.....................................    91
    McCue, Kerry, director, Ellis County EMS.....................    23
    Moser, Michael, MD, MPH, director, Kansas Department of 
      Health and Environment, Division of Health.................    17
    Stafford, Kevin, special agent in charge, Kansas City Field 
      Office, Federal Bureau of Investigation....................    96
    Teagarden, George, livestock commissioner, Kansas Animal 
      Health Department..........................................    56
    Williams, Raymond, president, chief executive officer, Sumner 
      Regional Medical Center....................................    28
Letters, statements, etc., submitted for the record by:
    Dalton, Patricia, Strategy Director, General Accounting 
      Office, prepared statement of..............................   115
    Gardner, Major General Gregory, Kansas Adjutant General, 
      prepared statement of......................................     8
    Hainje, Richard, Director, Region VII, Federal Emergency 
      Management Agency, prepared statement of...................   141
    Jaax, Jerry, associate vice provost for research compliance, 
      university veterinarian, Kansas State University, prepared 
      statement of...............................................    53
    Knowles, Terry, deputy director, Kansas Bureau of 
      Investigation, prepared statement of.......................    63
    Lane, James, undersheriff, Ford County Sheriff's Department, 
      prepared statement of......................................    75
    Maynard, Otto, president, chief executive officer, Wolf Creek 
      Nuclear Operating Corp., prepared statement of.............    93
    McCue, Kerry, director, Ellis County EMS, prepared statement 
      of.........................................................    25
    Moran, Hon. Jerry, a Representative in Congress from the 
      State of Kansas, prepared statement of.....................     3
    Moser, Michael, MD, MPH, director, Kansas Department of 
      Health and Environment, Division of Health, prepared 
      statement of...............................................    18
    Stafford, Kevin, special agent in charge, Kansas City Field 
      Office, Federal Bureau of Investigation, prepared statement 
      of.........................................................    98
    Teagarden, George, livestock commissioner, Kansas Animal 
      Health Department, prepared statement of...................    58
    Williams, Raymond, president, chief executive officer, Sumner 
      Regional Medical Center, prepared statement of.............    30


  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                        TUESDAY, AUGUST 20, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                       Abilene, KS.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the Dwight D. Eisenhower Presidential Library Auditorium, 200 
S.E. Fourth Street, Abilene, KS, Hon. Stephen Horn (chairman of 
the subcommittee) presiding.
    Present: Representatives Horn and Moran.
    Staff present: Russell George, staff director/chief 
counsel; David Bartel, chief of staff; Bonnie Heald, deputy 
staff director; Chris Barkley, assistant to the subcommittee.
    Staff present for Mr. Moran: Kip Peterson and Travis 
Murphy.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and their 
willingness to protect that freedom. The diabolical nature of 
those attacks and then the deadly release of anthrax sent a 
loud and clear message to all Americans: We must be prepared 
for the unexpected. We must have the mechanisms in place to 
protect this Nation and its people from further attempts to 
cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there remain 
serious doubts as to whether the Nation is equipped to handle a 
massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of Kansas and the good people of cities such as 
Abilene, Topeka and Kansas City to know they can rely on these 
systems, should the need arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the front lines. We want to 
hear about their capabilities and their challenges. And we want 
to know what the Federal Government can do to help. We welcome 
all of our witnesses and look forward to their testimony.
    Mr. Moran. Let me begin by thanking Chairman Horn for 
bringing his subcommittee and this important field hearing to 
the Eisenhower Presidential Library and Museum in Abilene. It 
is a fitting tribute that we would discuss issues such as 
homeland security and defense at this location.
    It was President Eisenhower who had the foresight to 
advocate for an interstate highway system. The Dwight D. 
Eisenhower System of Interstate and Defense Highways now 
stretches for more than 46,000 miles and was part of 
Eisenhower's vision for nationwide defense should the United 
States face the prospect of atomic war.
    Eisenhower faced a threat very similar to the one we face 
today. The cold war, for which he prepared, was not won by a 
single decisive battle--it was not conventional or quick. It 
was a war that required detailed preparation and determination 
by every aspect of society--from the armed services, from 
elected officials and from everyday Americans. Just as 
Americans did not waver from their convictions to stop the 
spread of communism during the cold war, today, during this War 
on Terror, we must not waver from our conviction to stop the 
spread of terrorism.
    Today, our enemies, the battlefields and the tactics of 
this war are much different from those in the past. But, the 
cause is the same. We fight, as Eisenhower fought, for the 
cause of freedom and the promise of peace.
    We are here today to discuss the preparations we have made 
and the steps we will take to defend our way of life from those 
who would do us harm. We have a distinguished group of 
witnesses with us here today whose experience and insight is 
invaluable. Thank you for joining us. I look forward to your 
testimony.
    [The prepared statement of Hon. Jerry Moran follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.001
    
    [GRAPHIC] [TIFF OMITTED] T8193.002
    
    Mr. Horn. We have read your testimony and it would go in 
automatically when we call on you and that would be in the 
report that goes to the Committee on Government Reform and then 
is part of a major report to the House of Representatives, so 
all your words that you have written will be taken and now we 
just need to get a summary of what those words are.

  STATEMENT OF MAJOR GENERAL GREGORY GARDNER, KANSAS ADJUTANT 
                            GENERAL

    Mr. Gardner. As the Adjutant General of Kansas, I serve in 
three roles; as commander of the Kansas Army and Air National 
Guard, Director of Emergency Management and since September 
11th the Director of Homeland Security. Our department's two 
missions are to provide military capability for the Nation and 
protect life and property in the State. The Constitutional 
State and Federal roles caused confusion over time with the 
military. There are basically three primary ways to employ the 
Guard. State duty under Governor control using State dollars, 
Title 10 duty under Federal control, using Federal dollars and 
Title 32 duty under Governor control, using Federal dollars. We 
have served around the world in Title 10 in the last seceral 
years in 6 continents and 30 countries. Title 32, under 
Governor control is how we served at the airports, borders, in 
counter drugs and security. This is absolutely the best way for 
us to perform the homeland security mission. It provides 
advantages that other Title 10 status does not do.
    For example, when a family member has a problem, we can 
swap out the Guradsman. The same with an employer. If an 
employer calls and says we will out of business if you don't 
come back, we can swap the Guardsman out. We can train the 
guardsmen in their home unit and maintain combat readiness and 
it also is a lower cost way of doing business and finally, 
we're not restricted by the Posse Comitatus law and are able to 
do law enforcement. For all these reasons, we believe the Title 
32 is the best way to do the homeland security mission.
    The role of the National Guard has seen a lot of debate 
nationally. Some have said why don't you make homeland security 
a primary or only mission? That would be the worst possible 
thing Congress could do. To date, beyond the Civil Support 
Teams and the National Guard counter-drug program, no Federal 
funds have been focussed on equipping or training National 
Guard forces for Homeland Security missions to support local 
responders preparing for biological chemical or nuclear attack. 
Some level of Federal funding needs to be dedicated 
specifically for this Federal mission performed in the States.
    The Governors employ The Guard usining approximately 
250,000 man-days per year State status. Combatant commanders 
use 2 million man-days per year around the world. Our readiness 
to do the war fighting mission around the world is what enables 
us to do the mission at home so we don't want you to give away 
that war fighting mission. Some say there's too much to do; 
therefore, the Guard shouldn't be able to do them both. Well, 
actually, the Guard has done both simultaneously throughout 
history and since September 11th we have 60,000 guardsmen on 
duty: 40,000 serving in Title 10; 13,000 serving in Title 32 
status and 8,000 in serving State duty. That meant that at any 
one time only 13 percent of 450,000 in the Guard was being 
used. That allows us to rotate the people in peacetime and 
surge for the major theater of war.
    Civil support teams, you have given the Nation 32. We 
respectfully request you give one to every State and because 
that's a unique mission that is not maintained by the active 
duty military. We need your continued support to maintain the 
attention and dollars. Anytime you have a unique mission, it is 
unlikely to get the highest priority from the military.
    As to Posse Comitatus, that law basically reflects our 
American belief in the limits on an active duty military in 
representative democracy. The law prohibits the Army and Air 
Force from enforcing civil law. It doesn't apply to the 
National Guard because it is one of the missions prescribed for 
us in the Constitution; to execute the laws of the Nation. In 
Posse Comitatus, my comments are please leave it the way it is. 
The spirit of the law is correct. It's anathema to a freedom-
loving America to alter the spirit of this law.
    Emergency management. We have been preparing for terrorism 
for almost a decade. Osama bin Laden was the culprit in a 
Kansas Emergency Management exercise in 1993. Since then we 
have been preparing for terrorism without much money. Funds 
from the Nunn-Luger and the MMRS and HHS have been very helpful 
in preparing us but that provides only spotty capability in our 
State and left the rest of the State uncovered.
    The DOJ grants. We identified a $20 million equipment 
requirement. We got $2.3 million in the first 3 years. This 
year $4.1 million is coming and equipment coverage has 
expanded. The program is improving but the best thing about 
that grant is it's 100 percent Federal.
    From EPA water treatment facilities, $460,000 for four 
Kansas plants. That covers 35 percent of the population but 
leaves the rural part of our State completely uncovered and the 
rules of that grant language don't allow it in the rural areas.
    Federal distribution, dollars that come from grants. Most 
of them have come directly to cities or directly to locals. As 
you can see, all of Nunn-Luger and MMRS, HHS, DOJ, 97 percent 
of the DOJ grant funds went directly to locals. However, Kansas 
is a rural State. Fifty percent of our State is served by 
volunteer or part-time emergency managers and first responders 
and so a regional approach is the most effective way to 
distribute the dollars in Kansas. What we ask is that you let 
the Governors distribute the dollars based on our State's 
strategic plan.
    Matching funds. We match every dollar we have from 
emergency management and State funds to FEMA funds now. We 
don't have anymore State funds available to match and are 
unlikely to get more because of the status of the State budget. 
Without being pejorative, I would like to share a perspective. 
If terrorism is a response to our Nation's foreign policy, then 
perhaps terrorism dollars and preparedness should be primarily 
a Federal responsibility. Bottom line, please give us 100 
percent Federal dollars and if you can't, use a broad 
definition of what soft or in kind matches are so that we can 
actually do something with it.
    First responders include law enforcement, fire and EMS. We 
would like you to broaden that definition to ``emergency'' 
responders, like Public Health, Emergency Management and Public 
Works.
    Bioterrorism. Dr. Moser is going to testify on that. His 
leadership has been crucial working with us and improving the 
responsiveness in Kansas for bioterrorism incidents. CDC money 
was very, very useful in Kansas. We can still use more and one 
final comment about medical. In the Air Natinal Guard As we 
have medical squadrons, at least one in every State around the 
country and they have capability to respond. They are training 
now in what we call the Emergency Medical Support or EMEDs. 
It's a module system that allows them to respond locally to 
help in disaster providing emergency and primary care occurring 
and resuscitative emergency care. As you grow these modules, 
you can provide greatly needed hospital capacity in a disaster 
and what I would like you to do is not listen to me out in the 
States. Please ask the Surgeon General of the Air Force to come 
and testify to you about that. Lieutenant General Carlson will 
tell you that starting in the States so that EMEDs can support 
locals in our homeland is what he thinks we should do.
    Finally, we support the President's proposal on homeland 
security, and appreciate the House's fast passage of that 
legislation. We hope the Senate will follow suit. We appreciate 
the inclusive approach of Governor Ridge and the Office of 
Homeland Security to date. They have been absolutely 
tremendous. We feel like our voices are being heard in the 
States from that office, creating a national strategy, instead 
of a Federal strategy was a perfect example. Finally in 
summary, please employ the National Guard and Title 32 status. 
It is the best way to do homeland security. Keep us in both of 
our constitutional missions, both the State and Federal 
mission. Provide 100 percent Federal grants and let the 
Governors determine what the distribution is. Thank you, sir. 
Do you have any questions?
    Mr. Horn. Thank you. That's a very fine presentation. You 
have given us some other things to deal with. I'll get the 
Surgeon General over if he likes it but we'll see.
    [The prepared statement of Mr. Gardner follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.003
    
    [GRAPHIC] [TIFF OMITTED] T8193.004
    
    [GRAPHIC] [TIFF OMITTED] T8193.005
    
    [GRAPHIC] [TIFF OMITTED] T8193.006
    
    [GRAPHIC] [TIFF OMITTED] T8193.007
    
    [GRAPHIC] [TIFF OMITTED] T8193.008
    
    [GRAPHIC] [TIFF OMITTED] T8193.009
    
    [GRAPHIC] [TIFF OMITTED] T8193.010
    
    [GRAPHIC] [TIFF OMITTED] T8193.011
    
    Mr. Horn. Now, we have to the next fine person. Dr. Michael 
Moser is director of the Kansas Department of Health and 
Environment, Division of Health.

     STATEMENT OF MICHAEL MOSER, MD, MPH, DIRECTOR, KANSAS 
    DEPARTMENT OF HEALTH AND ENVIRONMENT, DIVISION OF HEALTH

    Dr. Moser. Good morning. Congressman Moran, Chairman Horn, 
members of the audience. I am Dr. Michael Moser and I serve as 
Director of Health for the Kansas Department of Health and 
Environment. Thank you for inviting me to testify today. As 
Director of Division of Health for the Department of Health and 
Environment, I serve as State health officer for Kansas. In 
addition, Governor Bill Graves has appointed me to serve as the 
Executive Director for the Kansas Public Health Preparedness 
and Response to Bioterrorism Program. I serve as chairman of 
the Kansas Bioterrorism Coordinating Council and I represent 
the Department of Health and Environment and the Kansas 
Commission on Emergency Planning and Response. I believe you 
have my written testimony.
    At this time I would like to highlight the following 
points. First, Federal financial and technical assistance over 
the past 3 years have been critical in helping Kansas to 
improve the preparedness of our public health system to respond 
to the threat of biological terrorism. Second, public health 
preparedness for the effective response to terrorism is a long 
term mission. It will require long term Federal assistance, 
both financial and technical. Three, dual function capacity 
development should be a central tenet of our Nation's strategy 
for public health preparedness. Virtually all modalities that 
are necessary for effective public health response to 
bioterrorism can also support more effective public health 
action to address the leading causes of disease, illness and 
injury. Development of these modalities for preparedness should 
be integrated with the overall public health infrastructure. 
Four, partnership with other organizations is at the center of 
the preparedness strategy of the Department of Health and 
Environment. We are working in partnership with local 
organizations, particularly local public health departments and 
hospitals, and with State agencies such as the Department of 
the Adjutant General, the Kansas Bureau of Investigations, the 
Department of Animal Health and our State's institutions of 
higher learning. We also want to work in partnership with 
Federal agencies--with historic partners such as the Department 
of Health and Human Services, with new partners such as the 
Federal Bureau of Investigation and with partners to be such as 
the Department of Homeland Security. At this point I will 
conclude my prepared testimony. Thank you for your attention. 
If you have questions for me, I'll do my best to respond.
    Mr. Horn. Thank you. That's very precise.
    [The prepared statement of Dr. Moser follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.012
    
    [GRAPHIC] [TIFF OMITTED] T8193.013
    
    [GRAPHIC] [TIFF OMITTED] T8193.014
    
    [GRAPHIC] [TIFF OMITTED] T8193.015
    
    [GRAPHIC] [TIFF OMITTED] T8193.016
    
    Mr. Horn. We now have Kerry McCue, who is the director of 
Ellis County Emergency Medical Service. Mr. McCue.

      STATEMENT OF KERRY MCCUE, DIRECTOR, ELLIS COUNTY EMS

    Mr. McCue. Good morning, Mr. Chairman, Congressman Moran 
and distinguished guests. I would like to thank you for the 
opportunity to speak with you this morning. I'm currently the 
Director of Ellis County Emergency Medical Services. Our county 
is much like the community of Abilene. Ellis County is a rural 
Kansas county with a population of approximately 27,500. We 
have major transportation systems, both an interstate highway 
and railways that transact. Because of these transportation 
systems, many of our public service agencies have become 
regional resources.
    Existing Federal training and grant programs such as 
hazardous materials training have greatly benefited many of 
Ellis County agencies. However, much more is needed to allow 
these agencies to insure successful management of devastating 
events involving biological, chemical and nuclear agents. The 
need is not only monetary. Personal protective equipment and 
testing equipment is essential. It is not realistic for every 
community to have testing equipment. However, every community 
must have available to it testing equipment so that 
questionable substances can quickly and accurately be tested. 
When first responders are presented with hazardous situations, 
they must have the ability to identify the source and contain 
it, thus reducing the possibility of loss of life.
    Traditionally, we have provided our staff with training on 
how to treat patients that have become suddenly ill or injured. 
We have also provided the very basics on the treatment of 
patients affected by biological, chemical and nuclear agents. 
Traditional training is no longer adequate.
    With the events of last year, the changing terrorist threat 
to our country and communities, we as an EMS provider, along 
with other public safety providers, must ensure that our 
personnel have the appropriate equipment and training to 
function effectively when such devastating events occur. I 
believe there are several obstacles preventing public service 
agencies from obtaining such training and equipment. The first 
obstacle is available manpower. EMS, like many other health 
care professions, is significantly short of personnel. 
Recruitment and retention of qualified personnel has become a 
major source of concern for every administrator nationwide. 
Second, most first responding agencies in rural areas of the 
Nation must compete for limited funds available to local 
governmental bodies for equipment. Such lack of support to 
purchase necessary equipment has led providers to utilize 
equipment that is adequate to handle basic day-to-day emergency 
situations and not for significant terrorist events. Third, our 
current training programs have to focus more on responders 
awareness and treatment of victims of terrorist activities. 
Communication systems must allow responding agencies to 
communicate with each other.
    A tornado in a neighboring community last summer pointed 
out to the first responders here in Kansas how inadequate our 
communication systems were. If this would have been a terrorist 
attack utilizing biochemical or nuclear agents we could have 
lost citizens, responding public service personnel, simply 
because they could not adequately communicate. With the reality 
of terrorist events, new alliances will have to be formed. 
Chemical and biological nuclear attacks will create major 
public health problems, problems that will overwhelm the health 
care system as we know it. Such alliances can only be developed 
with cooperative efforts of the Federal, State and local 
government to insure commitment for adequate funding and 
infrastructure to exist.
    Local agencies struggle with equipment, technological 
advances and short useful life spans of equipment. Technology 
advances so quickly that frequently the equipment that agencies 
purchase is outdated when it is delivered. More significant is 
the fact that equipment purchased through grant programs 
outdate or passes by the manufacturer's recommended expiration 
date with no mechanism to replace it.
    And finally, recent implementation of Medicaid fee 
schedules for ambulances has dramatically affected the funding 
for many of these problems in the EMS industry. Decreases in 
patient revenues hamper any organization's ability to compete 
with outside market forces for qualified personnel, purchasing 
needed equipment and to provide quality training. So how can 
the Federal Government help local EMS providers? By providing 
more grants specifically targeting EMS providers; by providing 
grants and funding programs that encourage cooperative 
arrangements between all public service agencies; by providing 
grants and funding programs that are less restrictive and 
provide for replacement of equipment; address the negative 
impact of the Medicare fee schedule on rural ambulance service 
and increase availability of Federal training programs at local 
and regional locations.
    In conclusion, I would like to thank this committee and the 
Federal Government for taking the time to address these issues. 
If there are any questions I would be very happy to answer 
them. Again, thank you for your time.
    Mr. Horn. Thank you very much. We will go through a number 
of questions after the next presentation.
    [The prepared statement of Mr. McCue follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.017
    
    [GRAPHIC] [TIFF OMITTED] T8193.018
    
    [GRAPHIC] [TIFF OMITTED] T8193.019
    
    Mr. Horn. The next presentation is Raymond Williams III, 
the president and chief executive officer of the Sumner 
Regional Medical Center. Glad to have you with us.

   STATEMENT OF RAYMOND WILLIAMS, PRESIDENT, CHIEF EXECUTIVE 
            OFFICER, SUMNER REGIONAL MEDICAL CENTER

    Mr. Williams. Mr. Chairman, Congressman Moran, everybody in 
the room. I'm pleased to have the opportunity to share my 
perspective on the emergency issues facing our country's 
hospitals. I'm especially pleased to be a voice for the rural 
hospitals across America as we meet the daily challenge of 
caring for our sick and injured 24 hours a day, 7 days a week, 
every day of the year.
    The terrorist attacks of September 11th and the subsequent 
anthrax attacks have changed our American view of safety and 
security and have also changed Sumner Regional's view also of 
its emergency preparedness response. Over the past 11\1/2\ 
months, the Nation's hospitals have focussed on strengthening 
our national security and emergency readiness. Hospitals have 
been upgrading their existing disaster plans as has Sumner 
Regional. I'm personally involved in that responsibility at 
Sumner Regional; have learned a great deal about our planning 
process. I would like to note our effort to replace our current 
disaster plan with the Hospital Emergency Incident Command 
System. The American Hospital Association has reported that the 
hospitals continue to tailor the plans to suit the needs of 
their communities in the face of new and more ominous threats 
of terrorism, particularly terrorist use of the chemical, 
biological or radiological agents.
    While a voluntary use of HEICS will be welcome, I think 
strong consideration should be given by the Federal Government 
in mandating its use without exception. The point I will stress 
throughout this testimony is that, given the profound threat 
terrorism imposes to the citizens of the United States, I 
believe we need a clear and direct Federal direction with 
financial support to achieve the posture Americans deserve. I 
don't believe we have that now.
    Another observation from our experience at Sumner Regional 
is the woeful lack of information and guidance on how a 
community hospital should be prepared for terrorism. The 
closest information we could find was what we needed for a 
hazardous material incident or event and quite frankly, we 
can't meet those needs.
    Additional areas Sumner Regional and perhaps other rural 
hospitals need to address and find funding for includes but is 
not limited to such things as portable negative air machines 
and HEPA filters, large volume water purification equipment and 
I could go on and on. The initial observation from our 
experience at Sumner Regional was the readily apparent fact 
that we didn't have the funds to acquire structural 
improvement, to pay for equipment purchases, to pay for 
increased medical supply inventory and for training needed to 
better posture the staff at Sumner Regional in its new 
environment.
    While we, health care professionals in rural communities, 
recognize the principal focus of homeland security is on urban 
areas, I believe there's a value in recognizing that America is 
small and rural. This may be especially true if urban 
communities are threatened from terrorism attacks. Rural 
hospitals may be critical institutions for emergency 
preparedness if urban hospitals are incapacitated or 
overwhelmed with casualties. If rural hospitals are to be 
expected to care for the mass casualties of a major event for 
any reason, I believe it is imperative that our institutions be 
given greater attention with capital funding to prepare for 
such events.
    Focussing our emergency planning to include terrorism, we 
are finding it more difficult to definitively quantify the 
planning itself. We were able to gain some insight through an 
American Hospital Association survey on emergency preparedness 
and Sumner Regional's involvement with the State sponsored bio-
terrorism exercise, ``Prairie Plague 2002.'' These helped to 
some degree to truly appreciate the limiting factors in our 
plans; i.e., the need to have a decontamination facility, and 
we didn't have one. We need better communication with local 
health departments, law enforcement, EMS, the news 
organizations. We need an offsite location to treat medical 
emergencies. We didn't have the supplies or staff necessary for 
such a treatment site. We didn't have personal protective 
equipment necessary for such an event. We clearly need to 
address security needs to protect our staff and provide 
organization for treatment.
    Today, hospitals are not stocked with suitable personal 
protective equipment to protect clinicians and other health 
care workers from exposure in the event of biological or 
chemical attack, particularly one involving an unknown agent. 
This is true of Sumner Regional and I regret to report to you 
that we do not have one piece of personal protective equipment. 
Of equal concern is our need to provide training for the use of 
PPE once specific equipment requirements are identified and we 
will have to fit appropriate staff members for such equipment. 
Both the time for fitting and training will take needed staff 
time away from patient care and customer services. Hospitals 
should have a minimal level of decontamination for ambulatory 
and non-ambulatory patients; the ability to ramp-up quickly for 
a media event and access to a regional decontamination facility 
for a larger event. This, too, is true at Sumner Regional and I 
regret to report to you that we do not have decontamination 
facilities on the Sumner Regional campus.
    While we're working better at the local level, there's a 
general agreement that duplication of equipment and supplies 
and training must be controlled. We don't have the money to 
support every agency conducting and performing their own 
training, nor do we have the personnel, time or staff to send 
to numerous training courses or facilities to obtain that basic 
material.
    I believe I have really covered the essence of my testimony 
and wouldn't want to jeopardize someone else's and I'll 
conclude my comments but I really appreciate the opportunity to 
be with you today. Thank you very much.
    Mr. Horn. Well, thank you.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.020
    
    [GRAPHIC] [TIFF OMITTED] T8193.021
    
    [GRAPHIC] [TIFF OMITTED] T8193.022
    
    [GRAPHIC] [TIFF OMITTED] T8193.023
    
    [GRAPHIC] [TIFF OMITTED] T8193.024
    
    [GRAPHIC] [TIFF OMITTED] T8193.025
    
    [GRAPHIC] [TIFF OMITTED] T8193.026
    
    [GRAPHIC] [TIFF OMITTED] T8193.027
    
    [GRAPHIC] [TIFF OMITTED] T8193.028
    
    [GRAPHIC] [TIFF OMITTED] T8193.029
    
    [GRAPHIC] [TIFF OMITTED] T8193.030
    
    [GRAPHIC] [TIFF OMITTED] T8193.031
    
    Mr. Horn. We'll now begin the questioning by your 
Congressman, who will ask a number of questions.
    Mr. Moran. Mr. Chairman, thank you very much and I 
appreciate the witnesses testimony. This perhaps is a question 
to General Gardner and Dr. Moser. Have we given thought in 
Kansas as to what would be a likely terrorist scenario? Have we 
narrowed down the events that we ought to be preparing to 
respond to or is this simply looking at all possibilities for 
terrorist attack in our State?
    Mr. Gardner. We have been preparing for some years for a 
multiple of possible events. I don't think there is any one 
particular one. We have been preparing for foreign animal 
disease, which would have a great economic impact on the State 
and Nation--foot and mouth disease, for example. We have also 
prepared for bioterrorism kinds of incidences, each year 
exercising with a different highly likely scenario. So I don't 
think we can pick one. I think you have to prepare for a 
multiple of them and you have to build plans that allow you to 
respond to anything that comes.
    Dr. Moser. General Gardner has covered, I think, the 
critical points. I would simply note that the Centers for 
Disease Control, several years ago, published a list of the 
highest priority edition for public health and bioterrorism 
preparedness. Under our CDC funding we have focused activity on 
developing capacity for that response. However, I think General 
Gardner's point on the need to maintain a flexible capacity is 
absolutely critical. Unlike our day-to-day war with biological 
organisms, our enemies in the war on terrorism are intelligent 
enemies and they are likely to be changing their capacities as 
fast as we are developing our capacity to respond. Therefore, 
it is essential that we develop capacities that are capable of 
flexibility and deployment against whatever it is that our 
enemies throw at us rather than being locked into a limited set 
of scenarios that an enemy can work around.
    Mr. Moran. I appreciate your answers, but it does seem to 
me that the magnitude of tasks that you all face in that regard 
is just--is huge, is tremendous. It's always useful to be able 
to prioritize to see this is where we're going to focus but in 
this area, it just seems to me there's a myriad of 
potentialities that you have to be prepared for and I struggle 
with that. I mean I think we spent a lot of time in Congress 
dealing with the issue of security in our airplanes and on 
airlines and yet, I have no belief that's necessarily where the 
next attack by a terrorist organization would occur and yet, we 
cannot take the risk of not being prepared and I do know that 
we have restricted resources available. Problem is, I think 
most Kansans probably believe that Kansas is not a likely 
target for a terrorist attack and I'm often asked the question, 
you've got to be prepared to take, to reduce our risk but what 
does that mean? How are we supposed to live our lives and it 
seems to me that involves, in some way, prioritizing something 
that is very difficult to prioritize. Is there an ability to 
put a scale of one to ten kind of where we were before 
September 11th and where we are now in Kansas in regard to 
ability to respond?
    Mr. Gardner. I think what many miss is that we have 
actually been preparing long before September 11th and the 
progress has just continued. It's accelerated since September 
11th and probably the most important thing that September 11th 
has done, which is really what Y2K did as well, was it created 
interest and commitment of effort from more than the few 
agencies assigned to that responsibility. For example, when we 
hosted the Prairie Plague Exercise that Dr. Moser referred to, 
103 of the 105 counties were represented, and 99.976 percent of 
the population of Kansas. Prior to that the largest exercise 
was maybe one-fifth that size, so since September 11th the 
whole Nation has come on board in the preparedness for 
terrorism. I don't know if you can put a number figure to it, 
but it certainly has helped in our preparedness.
    Mr. Moran. Let me put words in Mr. Williams' mouth, if I 
might. I assume something you can tell us or prepared indicated 
in your testimony is that with Medicare reimbursement being 
what it is, your ability to expand your role, to have the 
financial resources to do even more things, is limited.
    Mr. Williams. Congressman, I couldn't have said that any 
better. Shall I stop?
    Mr. Moran. Well, it's always nice to be agreed with, but I 
assume that's a significant issue that we, as Members of 
Congress--I mean we're focused on terrorism, but there's a 
broader issue here, and it's true of emergency medical services 
as well. Since such a large portion of the Kansas population 
are senior citizens, Medicare has a huge role to play in 
financing the providing of medical services and the inability 
of Medicare to pay for the cost of the services that you are 
expected to provide already just has to create a tremendous 
burden upon a community hospital in expanding their role.
    Mr. Williams. Indeed, it does. Over the last 10 years we 
have watched the Medicare reimbursement go lower and lower to 
the point that today we find most every hospital in Kansas 
getting paid below its cost, and it's gotten to the point where 
we have had, if we had any cash reserves set aside to buy 
equipment, to provide training or what have you, those funds 
are no longer there. They are all depleted by trying to cover 
the insufficient reimbursement from Medicare and Medicaid and 
that's really why the picture that I painted a little bit 
earlier was so bleak and we need to have some quick solutions 
to that area because I really don't think that whatever we get 
in the way of grant dollars that are coming down, and greatly 
appreciated, that they are going to be sufficient to sustain 
the effort.
    One of the things that I recently found out is, for 
example, the personal protective equipment. If you needed a 
Level I suit in the emergency room, that suit's life expectancy 
is apparently about 5 years, so 5 years from now, if we had 
one, we would have to buy another one and that continues on and 
on.
    Mr. Moran. In that regard, Mr. McCue, the training, what 
happens if someone presents themselves either at Mr. Williams' 
hospital or with your first responders claiming that they have 
come in contact with a biological agent or they have smallpox. 
Do we have a different procedure by which we handle that 
circumstance if someone shows up in your waiting area or you 
respond to someone's home and the claim is that they are 
infectious? What do we do?
    Mr. McCue. Well, unfortunately, much like Mr. Williams, our 
staff is not properly protected. We do not have the appropriate 
personal protective equipment at this point to function in that 
environment and therefore, those first initial responders are 
going to be exposed to whatever it is and at that point it will 
be treated as a hazardous materials situation so we'll call the 
local fire department, who is the only agency in our community 
that does have the appropriate protective equipment to handle 
that and essentially work very closely with them to contain and 
decontaminate the situation. It becomes problematic then when 
you transport that patient to the hospital to make sure that 
they have the appropriate protective issues so that you don't 
contaminate that whole facility.
    Mr. Moran. Do you have any idea, Mr. Williams, whether your 
circumstances are different than a larger hospital in Wichita, 
Topeka or Kansas City? Would they have the additional equipment 
than a community hospital in other places in Kansas have?
    Mr. Williams. I do have a sense of that. I have had the 
honor of serving on the Kansas Hospital Association's new 
Hospital Emergency Preparedness Committee, and we have 
responsibilities for urban and suburban and certainly rural 
hospitals, and the committee has been meeting just since the 
beginning of the year and we're addressing--really asking those 
same questions. Each of us all feels the same way; that is, 
that even if we have some capacity, it is not sufficient from 
the standpoint that you really don't, as Mr. McCue commented, 
really don't want any patient to contaminate another caregiver 
or another patient and so that whole area of decontamination is 
very time consuming, very labor intense and if you had ten 
casualties, it would take quite awhile to get them 
decontaminated.
    Mr. Moran. Although the chairman was kind enough not to be 
sworn in, I also work under the time constraints that you do 
so, Mr. Chairman, thank you for the opportunity and looking 
forward to your questions.
    Mr. Horn. I think the one where I really feel the most, do 
you feel the Federal Government and the grants that have been 
made so far are helpful to that or do we need to do it in a 
different way and we will have some of this in the witnesses 
later, but since you are here, what do you feel on this?
    Mr. Gardner. From my perspective, the grants have certainly 
helped. They have built some islands of responsiveness and 
capability but haven't covered the whole State and unless you 
have an unlimited pot of money, if it all goes direct to 
locals, it will take an unlimited pot of money so we hope that 
you will extend 100 percent of the money and let the Governors 
use that regionally based on a plan and strategy for the whole 
State.
    Mr. Horn. Do we have for those of you that have the 
responders, particularly, either first or later, do we have 
compacts between counties, between regions? Some have in these 
particular hearings said maybe we ought to have a little more 
regionalism. Well, a lot of that was talked about in the 1930's 
and the 1940's and 1950's but does that make any sense or----
    Mr. Gardner. The emergency management aspect allows us to 
do that with other States. We have similar statutes in Kansas 
that allow us to do that.
    Dr. Moser. Under the Centers for Disease Control Public 
Health Preparedness Program, in cooperation with the 
association of local health departments for Kansas, we have set 
aside funds that will encourage the development of inter-local 
agreements between counties where the counties find it helpful 
for their preparedness activities to work together in 
cooperation. Regionalization, as I'm sure Congressman Moran 
knows and some other members of the audience also know, can be 
an explosive question for rural areas. Our approach has been--
and the Centers for Disease Control has been supportive of 
this--to encourage this activity and to make some funds 
available to help support it for public preparedness but not to 
impose it rather to support inter-local agreements if they come 
from the bottom up, but not to impose them from the top down.
    Mr. Horn. We have had a lot of people say that we need to 
do something differently and obviously it's the unexpected we 
have to deal with, and we'll have others that will get to that 
in terms--let's just take this example. You have a human germ 
of some sort. It can be of a foreign nature to do that. It can 
be somebody in our own country that we could have that; people 
that are not happy about research can cause millions of dollars 
of damage by destroying some of that research and so we have 
had a whole series of things here. Now, the question would be, 
when somebody seems to be in some situation where they are 
coming into the emergency rooms and hospitals and so forth, do 
we have the laboratories in terms of community colleges, 
universities, even high schools and all, what are we going to 
do to examine what has happened in that individual? It could be 
in very rural places where you don't have the laboratory 
facilities that are easily at hand.
    Dr. Moser. First off, I would say that we are constantly in 
the process of improving. What I tell people is that Kansas 
will always respond. We are prepared and we will respond. What 
we're working on is doing a better job of responding. With the 
assistance of the Centers for Disease Control, we have upgraded 
the State public health laboratory to full Biosafety Level III 
capacity. We're now working on increasing the volume capacity 
under that BSL-3. We are also in discussions with the Centers 
for Disease Control about establishing additional satellite or 
surge capacity for that activity in both the north central 
portion of the State and the south central portion of the 
State. I would just say those are still under discussion. We 
believe that this is an important part of our preparedness 
capacity. Combining with elements of the rest of the State's 
preparedness capacity--the Highway Patrol, for example--has 
been particularly helpful. In some cases the Air National Guard 
has been involved. We have arrangements to rapidly move a 
specimen from locations further out in the State to our testing 
facility in Topeka or, if needed, all the way to Atlanta. I 
believe General Gardner made mention in his written testimony 
to an instance during the anthrax crisis where we had a large 
volume of specimens that could best be handled in Atlanta. The 
Air National Guard flew those to Atlanta where the capacity was 
greater. I hope that's responsive. If not, tell me.
    Mr. Horn. This is very helpful and I happened to grow up on 
a farm and we need to make sure that the people way down from 
the urban hospitals, we have to know how to get there and reach 
them.
    Dr. Moser. Our approach, and I would have to say my 
personal philosophy, is that if one Kansan is vulnerable, we 
are all vulnerable. I understand the desire of people in the 
big cities to be protected. I support that entirely, but not at 
the expense of the people of rural Kansas. What we are striving 
for is a comprehensive public health and preparedness capacity 
where someone who lives in Abilene or Garden City or Mayetta 
need not feel that, because they live in a rural area or a 
smaller city, they are less protected. That is certainly our 
goal.
    Mr. Horn. Any other thoughts on that?
    Mr. Williams. Mr. Chairman, if I could go back to your 
question about the effectiveness of the Federal grants that are 
currently coming our way or already in place. I think that the 
spirit of America and spirit of Kansans can readily demonstrate 
the value of that support from the Federal Government. In 
Sumner County, in Cowley and Harper, who is two counties 
adjacent to Sumner County, we're starting to meet in a 
bilateral forum in which the directors of emergency management, 
directors of health departments, the hospital administrators, 
EMS people, the law enforcement, etc., are actively involved in 
discussion, actively looking for ways to collaborate and to 
make sure that those precious dollars, when they get down to 
the local level, are effectively used and I really believe that 
a lot of that is due to the leadership that we have at the 
Federal Government and certainly with Governor Graves and Dr. 
Moser and all of the folks at State level have been very 
sincere and very clear in their expectations that we all have 
to work together to rapidly improve our abilities so this is 
very encouraging. Thank you.
    Mr. Horn. Any other thoughts there? Let me pose this one. 
When we started these hearings in Nashville, Tennessee and we 
worked with the Vanderbilt University, the medical school and 
very fine hospital and so forth, and we found out that when you 
go through an exercise that the civilian helicopters that would 
bring people in to the hospital get down on the roof and so 
forth and when you put in the military in Tennessee, and you 
have a lot of this in Kansas, that the helicopters they had and 
the frequencies weren't there. You could not talk between the 
civilian groups and the military groups. What are we doing on 
that, General?
    Mr. Gardner. That's a big dollar bill.
    Mr. Horn. Can we go to a small little Radio Shack maybe and 
not have to have an $8 million----
    Mr. Gardner. I think two of the most important concepts for 
Congress are do we have a standard protocol like ASCII was in 
computers so that they can connect and second, will you please 
keep the frequencies available so they can be used for 
emergencies. Those are the two most important concepts for 
Congress. Interoperative communications are absolutely critical 
to our ability to respond.
    Mr. Horn. Now, that would be for the military and the 
health groups. Do we have, just as maybe you have had it for 
years between the sheriff, the police and so forth?
    Mr. Gardner. We have similar problems with those agencies 
as well. We have a State--this is the post-September 11th, 
after our inability in Kansas, we did put together a State-wide 
group to work on interoperative communications. It's making 
progress. It's a tough problem.
    Mr. Horn. Well, is it just money or is it that we have on 
the frequency situation that either one part of America has 
more frequencies than other parts of America? I can remember 
when I was the university president in southern California that 
we had exercises with the Sheriff and everybody else and it 
turned out all the frequencies seemed to be on the East Coast 
and I don't know if that's changed or what, but we need to look 
at that at a national level as well as a regional level.
    Mr. Gardner. I'm probably not the best person to answer 
that question other than to say that I know there are a limited 
number of frequencies and Congress has some level of control 
over them whether they are sold or not sold, who they are 
maintained for the exclusive use of, so between that and the 
standard way to connect all those communication elements is the 
answer.
    Mr. Horn. Well, is there a different set of frequencies 
that is coming on in terms of just how you parcel out 
frequencies?
    Mr. Gardner. I don't think I'm qualified to answer your 
questions, sir. Sorry.
    Mr. Horn. Well, I'm just technically wondering if we ought 
to find out from the Federal Communications Commission, and I'm 
glad you mentioned the thought of someone to get the 
frequencies up for auction and that sounds good that you want 
to get more money in the Treasury, but it's nonsense when you 
need communication to get from one place to the other and it's 
a lot more important than getting a few bucks for the Treasury, 
so I'm just wondering if your professional groups, health 
directors and all the rest, are they sort of making 
resolutions? I remember heading a national organization, you go 
out there and you have all sorts of things you send to your 
friendly senators and representatives and so forth. What about 
the health?
    Dr. Moser. I think that in terms of technical knowledge on 
this topic, I have to step behind the general. In terms of the 
criticality of the question, of its importance, there is 
absolutely no question in our minds. Certainly in our 
discussions with our colleagues in the hospitals, in my 
conversations with folks in the emergency management community, 
with law enforcement, this is a pervasive concern and question. 
On the other hand, it's been my perception and I think the 
perception of other people who are working on this that it 
needs to be solved jointly, State-wide. I'm not smart enough to 
tell you that it requires a Federal action. Maybe it does. I 
just don't know that. But it's clear that for us to be prepared 
to deal with the threat of terrorism and quite honestly, to 
deal with a number of other threats to the health and well-
being of Kansans, interoperable, intercommunications capacity 
between law enforcement, between first responders of all kinds, 
between emergency management, between public health, between 
hospitals, is absolutely vital and I can only reinforce more 
what the general has said about our perception of the 
importance of moving forward on that.
    Mr. Gardner. To your question specifically, the Adjutant 
General Association of the United States, and the National 
Emergency Management Association of the United States and the 
National Governor's Association all have a policy that supports 
the things that I talked about and address the problem with 
some more details.
    Mr. Horn. Well, the Sheriff's organization, I've learned 
over the years, have quite a wallop from the Members of 
Congress. Everybody knows they are a sheriff. Mr. McCue.
    Mr. McCue. It's a very good question and to take it to the 
local level from the State level, in my written testimony I 
provided, I give you a perfect example of how inadequate our 
systems are. We traditionally at the local level have been 
concerned about just being able to talk to those people in our 
own county, if you will, or city so you may have public service 
agencies on three different frequencies in that jurisdiction. 
Last summer we had that experience. We had a national disaster, 
tornado in a small neighboring community. We had several 
agencies coming into that community that could not talk to each 
other. We could not know who was there, or what their resources 
were. We could not transmit victim information; where are they, 
how many. We could not even relate safety information to other 
agencies. It's a huge problem at the local level and it needs 
to be, as General Gardner said, unfortunately, it's a large 
dollar solution but everybody at the local level needs to be 
able to talk interactively along with those people at the State 
level.
    Mr. Horn. I just have more one question. That is water. 
What are we doing looking at the water supply? When I was in 
Europe with a congressional group, I just happened to be there 
and at that time four of these idiots were trying to poison the 
Rome reservoirs. They caught them, but what are we doing to be 
preventative in our water supplies?
    Mr. Gardner. I know that EPA has provided four grants for 
Kansas and four major metropolitan areas in water treatment 
plants to help with security and other related issues. I think 
we're less concerned about the contamination of major water 
bodies because it takes so large a quantity to do that. We 
would probably recognize if somebody backed up five or ten dump 
truck loads full of chemicals to put it in a reservoir so we're 
more focused on the water treatment plants and security that 
actually relates to the hazardous materials that are used for 
some of that process, like chlorine tanks. A breach could cause 
massive casualties in the population. There's much about what 
they could do at that plant than actually affecting the water. 
It's more difficult to do it at that level. It's easier to do 
it at the entrance to a water supply to a particular building 
that holds a lot of people.
    Mr. Horn. Dr. Moser.
    Dr. Moser. I introduced myself as head of Division of 
Health and the Department of Health and Environment. There is a 
Division of Environment and I know from conversation with the 
director of that division that they have undertaken activities 
to encourage and provide technical assistance to public water 
facilities around the State on improving security. Now, in some 
cases, because there were only those four grants that General 
Gardner described, this has led to relatively low tech 
solutions. But even so, these are improving the security of 
public water facilities in Kansas. Even if it's putting a fence 
around a treatment plant where a fence with a lock on it didn't 
exist before, that's a step in the right direction. Again, we 
are hopeful of continuing that progress and I'm sure that the 
Division of Environment and its director could address this 
point in more detail for you.
    Mr. Horn. OK. Any other questions?
    Mr. Moran. Mr. Chairman, I chair a subcommittee on 
Veteran's Affairs Health Care and one of the things I learned 
since September 11th is that the Veteran's Administration has a 
role to play in providing health care services in times of 
national emergency. It responded in New York City. We don't 
have any witness from the VA, but I was interested in knowing 
if we have--if Kansas has a relationship with its VA Hospitals 
such that they are a component of response in providing medical 
services?
    Dr. Moser. Pursuant to the Federal requirements under the 
CDC public health grant and the Resources Health Services 
Administration Services [HRSA] Hospital Planning grant, we have 
included the Veterans hospitals in our discussions. Governor 
Graves has appointed a representative of the veterans hospitals 
in Kansas to both of those advisory bodies and that individual 
is participating in our discussions. I would say the 
communication is two-way. One, what can we do to help the VA in 
their preparedness activities to serve veterans. Two, what can 
they do to help the State of Kansas better serve the needs of 
the people of Kansas. I think they are certainly part of the 
process in our overall hospital planning.
    Mr. Moran. Thank you for your answer.
    Mr. Horn. I think it's an excellent point to bring in the 
VA. If there is ever a livewire cabinet member, it is the 
current Secretary of Veteran's Affairs. He is a mover and I 
think we ought to make sure that he has regional people as well 
as the individual at VA Hospitals and all the rest and there's 
a lot of things that in an emergency, that's going to help, 
just like our military hospitals, I would hope, about that. I 
don't know if the Adjutant General has thought about that, but 
if it becomes a real mess, we'll need every bit that is 
available and we ought to have the VA in from now on.
    Dr. Moser. I should note that Governor Graves also 
appointed an individual from the base hospital at Ft. Riley to 
be part of our hospital and public health advisory committees. 
We are trying to achieve linkage with the active duty military 
as well as with the reserves.
    Mr. Horn. We stopped to visit Ft. Riley yesterday and I was 
very impressed with what goes on there. Any other questions?
    Mr. Moran. No, thank you.
    Mr. Horn. If not, we will go to the next panel and our next 
panel is going to be witnesses talking about agricultural 
bioterrorism. We have Mr. Jaax, we have Mr. Teagarden, we have 
Mr. Knowles and Mr. Lane. We did the second to last and next 
will be Federal assistance programs but now we're talking about 
agricultural bioterrorism. Given the tremendous agricultural 
efforts of people in Kansas, we want to have those feelings and 
if you will raise your right hand.
    [Witnesses sworn.]
    Mr. Horn. When we call on you, your full statement 
automatically goes into the record. Then we will go down the 
line and when the fourth one finishes have questions from Mr. 
Moran and myself. So if we now can start with Mr. Jaax, we're 
delighted to have you here. Mr. Jaax is the associate vice 
president for research compliance, university veterinarian, 
Kansas State University.

 STATEMENT OF JERRY JAAX, ASSOCIATE VICE PROVOST FOR RESEARCH 
  COMPLIANCE, UNIVERSITY VETERINARIAN, KANSAS STATE UNIVERSITY

    Mr. Jaax. Thank you, Mr. Chairman, Congressman Moran. I 
appreciate the opportunity to testify in front of the 
subcommittee. Prior to coming to KSU, in a previous life I 
served in various programs for medical defense against chemical 
and biological agents, and in biological arms control 
compliance, counter proliferation, and cooperative threat 
reduction efforts with the Former Soviet Union so I got a first 
hand look at biological warfare programs both from the medical 
side and from the proliferation angle. I think it's important 
to understand that chemical and biological agents are 
completely different, completely different entities. A chemical 
attack will usually be a Hazmat event that would enable a 
response, whereas the biological attack would probably be a 
prolonged public health event and preparation for one of those 
events would not necessarily mean that you were prepared for 
the other.
    Mr. Horn. You want to identify what Hazmat means because a 
lot of people don't know that.
    Mr. Jaax. The use of hazardous materials. That would be 
typical first responders that would respond to an emergency. 
The biological threat is obviously very complex and 
technological issues and environmental factors may very well 
limit their usefulness. When you get into the highly contagious 
agricultural agents, some of those technological issues may be 
more easily overcomeable. Certainly we know that in the Former 
Soviet Union that they had offensive BW programs that went into 
incredible dimensions, perhaps up to 60 scientists and 
technicians involved in offensive biological warfare programs 
there. We also believe there may have been as many as 10,000 of 
those 60,000 working in agricultural programs and, of course, 
the great question is where are those people that were 
associated with the programs and that, of course, forms the nut 
of the proliferation problem associated with those programs.
    I think that here in this country we had a paradigm shift 
associated with awareness of the public as far as biological 
weapons are concerned. Even the most casual observer would 
recognize that biological agents are at least a potential 
threat to humans, but I don't think that recognition flows so 
freely to people regarding the vulnerability of the 
agricultural sector to biological attack. John Wefald, 
President of Kansas University, is fond of saying the great 
engine of our national prosperity here in this country is our 
ability to produce safe, plentiful and inexpensive food and any 
sort of disruption to that sort of supply would obviously have 
great impacts upon our economy. Time constraints limit my 
ability to talk about specific agricultural agents, but I think 
it's safe to say that foot and mouth disease is the one that I 
think is gaining the most attention. I would say, however, that 
the recent outbreak of foot and mouth disease in the United 
Kingdom cost the United Kingdom 25 billion pounds as far as 
their economy is concerned. It is also my belief here in this 
country that a well coordinated and concerted attack by 
knowledgeable opponents could probably cause that much of a 
loss within days of the attack being perpetrated here and 
obviously you have other kinds of issues associated with 
diseases that might have potential as well as just those that 
would affect agricultural agents.
    I would like to delineate some of the issues associated 
with the bioterrorist threat and these are measures that we can 
have to try to counter them. We need to develop coordinated 
partnerships between State, Federal and local industry to 
upgrade our local, regional and national awareness. National 
and regional agra-threat assessments must be performed and 
continually refined to ensure proper focus for research 
programs and development of effective counter measures. We have 
to enhance our critical research infrastructure, such as 
biocontainment laboratories and facilities that will allow 
targeted, applied research into plausible threat pathogens in a 
safe and controlled environment. These specialized facilities 
will not only allow us to find ways to counter these types of 
threats, but would also provide critical surge capacity if an 
outbreak occurs.
    On an agent-by-agent basis, we must develop and deploy 
effective and reliable rapid diagnostics, and forward 
surveillance systems, and new treatments and vaccines. 
Obviously, it's one thing to be prepared to respond, but if you 
don't have an adequate response or mitigation strategy, then 
that response becomes meaningless in some ways.
    We need to develop and refine mitigation strategies, such 
as carcass disposal plans that would be targeted for certain 
geographic areas and potential targets so that we can 
effectively contain and minimize the impact of any potential 
outbreak and we need to develop and institute effective 
education, training, planning and response capabilities for all 
stakeholders involved to include public health, law 
enforcement, military, Federal, State and local officials.
    The good news is that the effective countermeasures against 
specific biological threats can reduce risk and they can also 
serve as deterrents. The bad news is that developing these 
countermeasures and capabilities requires substantial 
investment. With adequate facilities and resources, we can 
build resource programs that will help address those plant and 
animal threats that are most concerned here in the agricultural 
heartland. Since most agraterrorist agents are naturally 
occurring in other parts of the world, these programs will also 
benefit us that these would help with natural or accidental 
introductions of that pathogen. We at Kansas State University 
are striving to build new programs and we are refocusing 
research efforts to aid existing programs that will try to help 
us aid against these threats. The inherent capabilities of the 
Land Grant system and a major research university are 
especially useful in programs that will would help us to 
counter these significant agraterrorist challenges. As 
background information, I am furnishing a copy of the testimony 
of Dr. Wefald in October 1999 for the Subcommittee on Emerging 
Threats and Capability where he testified about this very issue 
and I think that it does underscore the prescient, long-
standing commitment of the university to try and find ways to 
help protect us.
    It's my very firm opinion that we have to take a long view 
of the biological threat. This is not something that's going to 
go away next month, next year, or even in the next decade. The 
Defense Science Board recently stated that, ``Biodefense is the 
single most significant challenge to U.S. sovereignty.'' I 
think those are big words and I think they are something we 
have to take seriously. There are those who would say we should 
refrain from discussing these threats and our possible 
vulnerabilities. However, I believe Representative Shays has 
touched the heart of the matter when he recently said, ``Better 
to be scared by the improbable possibility, than to be 
unprepared for the catastrophic reality,'' and I think we can 
ill-afford to disregard that advice because the fact is, our 
agricultural infrastructure is certainly vulnerable and I think 
we need to find ways to protect it. I appreciate the 
opportunity to testify and thank you.
    [The prepared statement of Mr. Jaax follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.032
    
    [GRAPHIC] [TIFF OMITTED] T8193.033
    
    [GRAPHIC] [TIFF OMITTED] T8193.034
    
    Mr. Horn. We now have Mr. Teagarden and he is the livestock 
commissioner, Kansas Animal Health Department, State of Kansas.

 STATEMENT OF GEORGE TEAGARDEN, LIVESTOCK COMMISSIONER, KANSAS 
                    ANIMAL HEALTH DEPARTMENT

    Mr. Teagarden. Thank you, Chairman Horn. I'm not going to 
read my testimony, but I just want to stress a few things and 
try to keep this brief. Dr. Jaax has mentioned a couple of 
things, and Dr. Moser, that I had in my testimony also. I think 
to start out with, I'm sure that Congressman Moran has 
explained to you the importance of agriculture in Kansas. Very, 
very important to our economy here. Terrorist action or an 
accidental introduction of a disease like foot and mouth would 
wreck us, our entire State and our Nation's economy. I think 
that if the terrorists really want to get into the United 
States, they don't bomb buildings. They get through our 
agriculture industry, food production and they have us big time 
so I think that's something that a lot of people haven't been 
aware of that potential there and haven't been concerned about. 
A lot of people don't think that terrorists will come to the 
heartland, to Kansas, through the Midwest because of the low 
population, but if want to call it big time emergency damage, 
that's where they will come.
    Mr. Horn. I agree with you and we have put all the 
testimony given for the report to go to the House of 
Representatives and it's very clear that you are right on what 
you're saying.
    Mr. Teagarden. I don't think that we can prevent the 
intentional introduction of a disease agent to our livestock or 
agricultural industry or for that matter, any other thing in 
the United States. I think they have pretty well proven that 
they can do whatever they might want to. Introduction of a 
disease would be extremely easy, a disease that could really 
damage us, but I think we can be prepared to respond quickly, 
to bring that under control and eradicate that disease and I 
think that's what we have to address is being ready and capable 
of that response.
    The United Kingdom last year, they weren't prepared to 
respond to that outbreak of foot and mouth and it consumed 
their country for better than 10 months. Their agricultural 
industry over there was--I don't know when they will ever 
recover. It will be many years, but they weren't ready and 
capable of responding quickly and it overwhelmed them. Dr. 
Moser and Dr. Jaax both have spoken about research and 
laboratory capabilities. I think that's very evident today in 
our systems, in the Federal system and our State systems, that 
we need more capacity in our laboratories. We need to spread 
out the Federal laboratories and do some of that work in our 
local laboratories such as Kansas State University or different 
laboratories around the country and do a lot of that work. Our 
Federal laboratories, like I said, just do not have the 
capacity and the capabilities to do that and research is very, 
very important. Foot and mouth disease, in my opinion, hasn't 
been researched much in this century or last century. Our 
protocols right now to combat foot and mouth disease are the 
same as they were in 1925. I have a book on my shelf in my 
office that was printed in 1925 and we do the same thing today. 
We have--there's got to be some better ways. There's got to be 
some vaccine research we might be able to use to help us in 
that regard. I think the one thing that the Federal Government 
can do if we have an outbreak of a foreign animal disease is 
allow us the opportunity to respond. In other words, do not 
make things complicated as far as getting money and support and 
help to the individual States. I don't think the Federal 
Government, with USDA Veterinary Services, has the manpower 
anymore to combat a disease. It will be up to the States to do 
their own work, but just keep it simple. We're going to cause a 
great damage when we have an outbreak of foreign animal disease 
and we have to be prepared to help our producers and our 
consumers overcome that problem. Thank you.
    Mr. Horn. I have been on various delegations to the 
European parliamentarians and recently a group of us were in 
Russia with the DUMA, 40 Members and obviously we got into 
these issues and they are trade issues and some of them are 
absolutely phoney, like the poultry bit they are holding up off 
St. Petersburg and Georgia. Millions of dollars go down the 
drain on that because people say oh, you know, we can't get 
that chicken and all because this, this and this is done. Over 
the last 10 years we've tried to tell the parliamentarians in 
the European Parliament, can't you get a national academy of 
science where the people of scientific value have done what the 
truth is and not the propaganda and so we face that with our 
trade and the English foot and mouth disease doesn't really 
help very much when that goes on. It ricochets into the United 
States. And we need to get this--and they agreed. They said, 
you know, we have to have a decent academy of sciences, like 
our own academy does.

    [The prepared statement of Mr. Teagarden follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.035
    
    [GRAPHIC] [TIFF OMITTED] T8193.036
    
    [GRAPHIC] [TIFF OMITTED] T8193.037
    
    Mr. Horn. Mr. Knowles, we're delighted to have you here. 
The FBI has done a lot and I'm sure the Kansas Bureau of 
Investigation will be involved in that.

 STATEMENT OF TERRY KNOWLES, DEPUTY DIRECTOR, KANSAS BUREAU OF 
                         INVESTIGATION

    Mr. Knowles. Thank you very much, Mr. Chairman and welcome 
to the State of Kansas. Truly the KBI, we do follow the 
leadership of the FBI and we work as a State-wide law 
enforcement agency. We work in full partnership with a number 
of the Federal law enforcement agencies and the Joint Terrorism 
Task Force around the State at Wichita, Topeka and Kansas City.
    On page 2 of my statement I detail the status of terrorist-
related investigative activity that we as a KBI have been 
involved in and when I say we, I'm talking really in part for 
Kansas law enforcement. We have conducted over 300 terrorist 
related preliminary inquiries and if it requires further 
investigation, we hand that off to the Joint Terrorism Task 
Force for their consideration. We have made and participated in 
over 41 arrests in the State of Kansas for INS, primarily on 
visa violations. What I would like to address and followup what 
my good friend and partner, George Teagarden, he talked about 
the impact of a foreign animal disease and exactly what would 
law enforcement's role be in first responding and then I'll get 
to the prevention aspect.
    There was an incident that occurred, a false rumor, foot 
and mouth disease in Holton here in March of this year. 
Following that incident we did an assessment, what would law 
enforcement have done had that been a real event. It would have 
required 12 road blocks, 36 officers per shift, roughly 96 
commissioned officers per day for a minimum of 60 days. Now, 
the livestock commissioner is empowered through the 
Legislature, by the Governor. He will be in charge of those 
quarantines. In addition to those 12 road blocks that we would 
be operating for a minimum of 60 days until it's fully 
eradicated, we would have to close off 62 roads coming into the 
State of Kansas and virtually stop all movement of livestock. 
Now, that is a major undertaking.
    Now, we would be ably assisted by the National Guard, but 
if you look at the resources that would be committed well 
beyond the daily public safety response of law enforcement, it 
would virtually bankrupt Kansas law enforcement, our resources 
and ability to do that. The Kansas Attorney General, Carla 
Stovall asked the KBI to look at bioterrorism threats to Kansas 
agriculture and define our responsibilities. Having done that, 
I'm at the point of saying that if it occurs, we're already 
losing and our focus has to be on prevention. Now, the KBI, 
much like a number of law enforcement agencies; specifically 
the FBI, we are switching to a more intelligence driven, 
prevention type of operations. To do that, we have created--we 
are part of what we call the Kansas Law Enforcement 
Intelligence Network. It's a computer-driven intelligence base 
available to all 345 law enforcement agencies in the State of 
Kansas. Now, to have this system--that's where local officers 
could enter data, access data, make inquiries, say, in Ford 
County, whether or not some suspicious activity is going on. Is 
it occurring in other parts of the State here. This system is--
we're probably, if I said we had ten agencies on board of the 
345, it will be another 18 months before we have that system 
fully operational as an intelligence-driven or preventative 
type system or network for Kansas law enforcement. Not for the 
KBI but for Kansas law enforcement. We will need Federal 
assistance to make that happen or we can sit back and let the 
18 months kind of grind away as we presently are.
    Making the shift to an intelligence-driven investigative 
operation is a major diversion from the way we have done 
business in law enforcement over the past 25 or 30 years where 
we responded after the fact. If we develop sources or 
intelligence data, it was always directed at the solution of a 
case or at some narrow objective. Today we're looking at 
trying--you asked the question in the first panel, what are the 
threats. They are so broad that we're trying to shift our 
intelligence capability to meet that demand and figure out 
where they would strike in the State of Kansas and if the 
Commissioner is correct and they come at our livestock, which 
is 8 to 10 billion a year, we will be devastated here, so our 
focus as a State agency will be on prevention and intelligence-
based to prevent those occurrences. I will be very glad to 
answer and respond to questions later on, Mr. Chairman.
    [The prepared statement of Mr. Knowles follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.038
    
    [GRAPHIC] [TIFF OMITTED] T8193.039
    
    [GRAPHIC] [TIFF OMITTED] T8193.040
    
    [GRAPHIC] [TIFF OMITTED] T8193.041
    
    [GRAPHIC] [TIFF OMITTED] T8193.042
    
    [GRAPHIC] [TIFF OMITTED] T8193.043
    
    [GRAPHIC] [TIFF OMITTED] T8193.044
    
    [GRAPHIC] [TIFF OMITTED] T8193.045
    
    [GRAPHIC] [TIFF OMITTED] T8193.046
    
    [GRAPHIC] [TIFF OMITTED] T8193.047
    
    Mr. Horn. OK. We now have Undersheriff James L. Lane, Ford 
County Sheriff's Office.

 STATEMENT OF JAMES LANE, UNDERSHERIFF, FORD COUNTY SHERIFF'S 
                           DEPARTMENT

    Mr. Lane. Chairman Horn, Congressman Moran, I, too, am 
honored to offer my thanks by testimony regarding the readiness 
of our community. Historic Dodge City, much like Abilene, is 
the county seat of Ford County. The Ford County Sheriff's 
Office has a part with 12 full-time commissioned patrol 
officers and ten additional commissioned officers. The county 
is approximately 1,100 square miles with a population of about 
35,000 people. Now, I would also like to add at any given time 
there may be in excess of 300,000 head of live cattle on the 
ground and I make that statement just to underscore that our 
community is completely reliant upon the agriculture industry 
and so I will speak with emphasis on our major concern, which 
is the biological threat.
    I want to say that our local emergency preparedness 
committee is active in all aspects of terrorism planning and I 
believe that we are far short of having all the tools that we 
need. However, our community has developed partnerships with 
the agriculture industry and we have developed a comprehensive 
multi-jurisdictional response plan for such an attack and we 
are confident that it's one of the few plans in the Nation that 
is derived at the local level. We have completed the Domestic 
Preparedness Plan or are in the process of equipping local 
first responders to the greatest extent possible with the 
$44,000 that we have received in Federal grant moneys. Without 
these dollars we would be significantly less prepared. We have 
devoted a great deal of time and effort in trying to identify 
the consequences of such an attack and our response to it, and 
I think we have had some success in that. So having a fairly 
good understanding of the consequences and the underlying costs 
it could echo, it is critical to focus on prevention. 
Previously, I mentioned that we had a plan locally for dealing 
with such an incident and we learned a great deal in that 
planning process. We learned a great deal about our community, 
and we really learned a lot about the impact that agriculture 
has on it. I think we understand what the local response will 
be. Maybe, with the exception of the FBI and the USDA, we're 
unclear at how some other Federal agencies will respond to our 
community. We also have a question if maybe they understand the 
industry. We now understand the movement of livestock in the 
State and especially locally and we know that it is paramount 
to stop the spread of disease. When a quarantine is 
implemented, it will severely tax local government and it will 
devastate our private industry locally. We know that the 
quarantine will lead to many consequences within our community 
in addition to the ones I just mentioned. We know that there 
may be some problems that arise with the National Guard in 
getting them commissioned. There's some questions to that we 
are trying to get answered as far as can we take National 
Guardsmen and commission them to do the police function, 
especially if we have a situation of civil unrest as a result 
of a quarantine. Last but not least, we understand the economic 
impact for Kansas and the rest of the United States and 
probably the world. We have encountered a few problems in the 
planning process. We found that there's somewhat of a lack of 
communication between Federal, State and local levels of 
government in the emergency preparedness. I think it's getting 
much better. I think that we have all, or we all understand 
now, that we're in this together and we have to have that 
partnership to have any success. I am concerned that local law 
enforcement may not always know what level of homeland security 
we're on. There is some confusion in terms of the rules and 
responsibilities and response of other agencies to any 
terrorist attack at our level. I think there must be more 
effort put forth in educating not only Federal agencies but all 
agencies about the agricultural community. Undoubtedly that's 
best accomplished by the USDA and I speak for our Sheriff and 
the emergency manager and other first responders in our 
community do support the President's proposal consolidation of 
responding agencies under the Department of Homeland Security. 
I think that when we can look for a single point for education 
and funding and training and technical support, including the 
intelligence and technology, that we can begin to promptly 
focus on prevention and implement logical response plans.
    In summary, understanding that the Federal resources are 
not unlimited, we would offer the following statements in terms 
of assistance that we ask for in meeting our communities needs. 
No. 1 is continued funding for education and training in 
communities so that planning begins in those communities. For 
the frontline defense and identification of diseases, Dr. Jaax 
referred to that in labs so that we understand the disease 
better. For primary and secondary responders and equipment and 
in research efforts. We need funding in technology for 
intelligence gathering and dissemination, as Mr. Knowles 
referred to, and I think at the local level we have a real need 
for funding an emergency operations center so that if we do 
have to respond in such a way that our emergency operation 
center has the technology to deal with the problem at hand. 
Equipment funding for equipment for first responders and maybe 
physical security for the industry, I don't know that needs to 
be mandated, but we may have better success if there is an 
opportunity.
    No. 2, we need a single source of information so that we 
understand the roles and responsibilities of responding 
agencies and second, we have a library of assistance so that 
communities know what funding is available to them and that may 
all be best accommodated through homeland security.
    No. 3, we need to develop partnerships with private 
industry. We need to have joint training between local, State, 
Federal responders and the industry and No. 4, we want to 
emphasize prevention on every level, including research, 
education, planning intelligence, rapid and appropriate 
response. Thank you for your consideration.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Lane follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.048
    
    [GRAPHIC] [TIFF OMITTED] T8193.049
    
    [GRAPHIC] [TIFF OMITTED] T8193.050
    
    [GRAPHIC] [TIFF OMITTED] T8193.051
    
    [GRAPHIC] [TIFF OMITTED] T8193.052
    
    [GRAPHIC] [TIFF OMITTED] T8193.053
    
    [GRAPHIC] [TIFF OMITTED] T8193.054
    
    [GRAPHIC] [TIFF OMITTED] T8193.055
    
    [GRAPHIC] [TIFF OMITTED] T8193.056
    
    [GRAPHIC] [TIFF OMITTED] T8193.057
    
    Mr. Horn. We'll now go to questions and the gentleman from 
Kansas can begin the questions.
    Mr. Moran. Mr. Chairman, again, thank you for the 
opportunity. I learned something--I learn something everyday 
and I learned something from all you today, but I generally 
have had the same response when people talk to me about ago-
terrorism in Kansas that I don't know how we can prevent it, 
but we've sure got to be able to respond quickly; that it is an 
issue of response and Mr. Teagarden highlighted that, but the 
additional piece of information is prevention that comes 
through intelligence activities and I can see absolutely the 
importance of increasing our capability of learning about the 
potential, the acts of potential terrorists in advance so it is 
not just response but it's also prevention through 
intelligence. I have always thought that we didn't have the 
ability in Kansas to protect every farm, every feedyard and I 
don't think we do, but we do have the ability to know what 
people may be attempting to perpetrate and so I appreciate 
highlighting it helps me explain to my constituents better what 
the opportunities are and I would tell Chairman Horn that 
Kansas very much is a livestock-producing State. We're often 
thought of as the ``wheat'' but the actual State product is 
derived, the largest portion comes from livestock. There's no 
congressional district in the country more so than the first 
district of Kansas that has cattle on feed so this is a huge 
issue and the potential for our State's health and the health 
of its economy is tremendous.
    Mr. Jaax, you are a national expert and one thing I want to 
highlight is that people who are knowledgeable about this 
topic, you have to be on the top ten list and I want to make 
sure that you have the sense that national leaders, those 
involved in the issue of agraterrorism are utilizing your 
expertise. Is that true?
    Mr. Jaax. Thank you for those comments. I think that one of 
the key elements of this whole discussion is recognizing that 
agraterrorism is certainly a very significant subset of the 
overall bioterrorist threat and I think that resources like the 
ones that I represent at Kansas State and the land grant 
statutes are very important in trying to help us come up with 
national plans for how we would respond to various agents. I 
want to re-emphasize when you're talking about response and how 
we would protect ourselves and it goes back to a question that 
you asked, Mr. Chairman, of the first panel, which was what 
should we be worried about and I think that very thoughtful and 
accurate risk assessments associated with plausible threats, if 
we can find ways to counter them, if we have adequate counter 
measures, then we can strike off those of the more ominous 
threats until we can reduce the risk associated with an input, 
but to go back to your question, sir, I think that clearly the 
national authorities are looking for help because this is such 
a huge problem, especially on the biological front because it 
is so complicated and is so regionalized because the threats 
are different everywhere. I think that they are coming to 
people like me and certainly to organizations like the one--
like Kansas State to try to help to find effective 
countermeasures and strategies for dealing with this, but the 
fact is there's only so much--there are only so many resources 
to go around and the threats are many.
    Mr. Moran. Well, thank you for your efforts. I was 
interested in your testimony, Mr. Knowles, about the number of 
investigations related to these kinds of potential acts. One 
thing that caught my attention is the role that apparently the 
INS is asking the KBI to play and I'm confused by that because 
I assume that INS violations are violations of Federal law. 
What role does the KBI have in responding to an INS request for 
investigation?
    Mr. Knowles. We participated in a number of investigations 
on those visa violations where INS is the lead agency. We will 
provide the assistance, whether it be in terms of the 
interviews or the arrest. Obviously the violation would fall 
for the Federal Government and the U.S. Attorney's Office. We 
merely support whether it be a investigation or the 
apprehensions in those investigations. The KBI, through our 
history, has been an agency that assists other--whether it be 
Federal or local or county agency, we will assist as they 
request. Now, we work, as I indicated, on the partnership on 
the Joint Terrorism Task Force. We are a full partner but the 
FBI will play a lead role along with the U.S. Attorney's Office 
so it's not the State violation that we're focussing on. We are 
simply a partner in the investigation.
    Mr. Moran. Are those investigations, when you talk about 
visa violations, are they in addition to being visa violations, 
is there some thought that there's potential terrorist activity 
associated with the person involved?
    Mr. Knowles. In some cases and what we do, once we conduct 
a preliminary inquiry, we'll forward those on to the Joint 
Terrorism Task Force for further investigation. A lot of our 
investigations in that respect are a response to calls from the 
public. We do that preliminary inquiry to see, is it valid, is 
the information--is it not generic and is it specific enough 
for some type of either an arrest or a confrontational 
interview and that's what we pass on to the task force.
    Mr. Moran. You also, Mr. Knowles, indicated or mentioned in 
your testimony about crop dusting.
    Mr. Knowles. Yes, sir.
    Mr. Moran. Crop dusting is an integral part of our 
agricultural economy. Are there things we need to be doing 
more? Have we struck the right balance in regard to that 
activity?
    Mr. Knowles. When the President raised that issue 
nationally, shortly after September 11th, about the threat of 
this type of aircraft, we looked inward. We didn't have a data 
base. We did not know the extent of pilots or aircraft within 
the State of Kansas. Since then, KBI--we have had a face-to-
face interview with all pilots, with all owners and we have a 
data base. There are 180 such aircraft in the State of Kansas 
and 130 pilots or owners and it's very cooperative. They wanted 
to come to us. We were getting all types of calls about 
suspicious aircraft, low flying aircraft and now we have a good 
handle on that and I think the first handle talked about the 
progress from September 11th. We now have--if we have a 
complaint, we can go right to the source and identify the 
aircraft and/or the pilot.
    Mr. Moran. Have you also identified the pilot schools, 
pilot training in Kansas?
    Mr. Knowles. To some extent. Trying to be proactive with 
what was going on, whether it was in Florida or Arizona. We 
certainly did not want it to happen in our State and going back 
to this idea of prevention and intelligence gathering, we're 
asking those pilots to, when some suspicious activity--if 
something is not quite correct, if you have a question about 
somebody's motive for learning to fly a crop duster, let us 
know and we'll help you with that, but yes, since that 
occurred, crop dusting is now on our scope and it's in our data 
bank.
    Mr. Moran. The Law Enforcement Center at Yoder, has that 
course work--this may be a question for the Undersheriff as 
well. As the course work changed in regard to what law 
enforcement officers are taught, trained?
    Mr. Knowles. Being under oath, the other director, as you 
know, he's the former director of the Kansas Law Enforcement 
Training Center in Yoder here. If I could defer to our director 
and see if he might have a thought in that direction. Would 
that be permissible, Mr. Chairman?
    Mr. Horn. Certainly.
    Mr. Knowles. And I would introduce the director of the KBI, 
Larry Welch, who is the former director of the Kansas Law 
Enforcement Training Center in Yoder, Kansas.
    Mr. Welch. Thank you very much. I did know that Deputy 
Director Knowles was going to figure out a way to get me up 
here. Congressman Moran, the answer to your question is while 
the basic certification course at the Kansas Law Enforcement 
Training Center at Yoder has not changed significantly because 
of the events or the aftermath of September 11th, they have 
reached out and added courses and training in what we would 
call in-service training seminars throughout the State of 
Kansas. But as far as basic training for certification of 
Kansas law enforcement officers, I must answer the question 
that they haven't really significantly changed the core 
curriculum but considerable training has been done by the 
Academy, by seminars and schools throughout the State and 
indeed by others.
    Mr. Moran. I appreciate your answer and I also appreciate 
the efforts of the KBI not only in the area of terrorism but 
just the full plate that you have in our State to try and 
combat a number of law enforcement and therefore, problems for 
our citizens.
    Mr. Welch. Congressman, if I might interrupt and embellish 
just a bit on the question that you asked of the deputy 
director regarding why specifically we were so involved in the 
INS matters, it's actually primarily a matter in that 
particular situation of manpower on the part of Immigration. 
They don't have enough agents--this office in Kansas City 
covers half of Missouri and all the State of Kansas. They were 
woefully undermanned after September 11th and it started out 
primarily simply as a matter to provide manpower for them to 
assist in arrests on visa violations and it kind of extended 
from there.
    Mr. Moran. I appreciate that answer and I asked the 
question because the INS struggles greatly in performing its 
duties, not only in our State, but nationwide and it's an issue 
that we care lot about in Kansas about their ability to enforce 
the law and I was interested in how the KBI became engaged with 
the INS. Let me ask the undersheriff in Ford County or 
southwest Kansas, do our cattle feeders do anything different 
today than they were prior to September 11th that related 
perhaps to this issue of intelligence?
    Mr. Lane. I think so. I think we've seen--at least in our 
community, I can speak for a number of biosecurity measures put 
in place. I think that there are some cost prohibitive things 
that have not been done and also, considering the vast expanse 
of a typical 50,000 head feedyard over three or 400 acres of 
land is difficult to put under surveillance so I think that 
there is a good attempt at implementing biosecurity measures, I 
think in Mr. Teagarden's recommendation early on, that a lot of 
them started addressing those issues and we have seen some 
success in our area. That's emphasizing cleanliness in 
equipment, scrutinizing shipping papers so that an infected 
animal may not come in from another State or another country.
    Mr. Moran. Mr. Teagarden--my final question, Mr. Chairman. 
Mr. Teagarden, would you walk you through the scenario of the 
belief that if there's foot and mouth disease in feedyards in 
Kansas, what should happen and who plays what role in that 
response?
    Mr. Teagarden. You want to take a deep seat first? If a 
feedlot operator or a cowboy out in the feedlot found some 
unusual disease symptom that they weren't familiar with, they 
would notify probably their own veterinarian within that 
feedyard. If that veterinarian thought there was something that 
looked like a foreign animal disease, they would call our 
department or USDA and we would send out a trained foreign 
animal disease diagnostician. All of our veterinarians on our 
staff and State have been to a special school at Plum Island 
for foreign animal disease.
    Mr. Moran. Is that vet, is he placed somewhere close to 
southwest Kansas or somebody that comes from Topeka?
    Mr. Teagarden. No. Stationed from Dodge City. From Kingman 
to Dodge City is about 2\1/2\ to 3 hours for one of our vets 
that would cover Dodge City so we would go out, collect 
samples, ship them as quick as we could get them to Plum 
Island. If our vet that was out there thought it was highly 
likely, we would activate our emergency plan to at least a 
Level III at that time. In other words, get people together, 
start the system. We have a media team that would be ready to 
send out notices to the media about what the situation was, 
where it was at, so on and so forth. We would go into action. 
We have been planning for an outbreak of foreign animal disease 
for roughly 4 years now and we have--it's not a complete plan 
and never will be, but we've got it down to where we kind of 
know the first indication, true indication that we have a 
foreign animal disease, we're going to go into action and we 
believe in Kansas that the only way to combat an outbreak is to 
hit it with all we've got. We're going to declare war on a 
disease, such as foot and mouth, because that's the only way 
we'll get ahead is hit it hard and hope we can stop it.
    Mr. Moran. You indicated the sample would be sent to Plum 
Island. Is that the efficient way of doing it?
    Mr. Teagarden. That's the only place we can get a true 
definitive diagnosis at the time and that's why we need more 
laboratory capabilities.
    Mr. Moran. Mr. Jaax.
    Mr. Jaax. I would like to weigh in on that one also. I 
think that in my testimony I talked about foreign diagnostics 
and, obviously, the faster you find out that you have a 
problem, the more confident you can be in your response and 
those responses can be done in a very straightforward way. The 
situation with foot and mouth, as I understand it with Plum 
Island, is that those reagents that are necessary to make that 
diagnosis really don't require the kind of containment that's 
available at Plum Island, but it's a situation where they don't 
want a false/positive made and have the responsibility for that 
in the field. I think under pre-September 11th circumstances 
perhaps that was completely understandable, but 36, 48 hours in 
a foot and mouth outbreak is a lot of time and I don't think 
that we can afford the luxury of finding out days after 
diagnosis could be made that we have foot and mouth disease 
here so I'm very strongly in support of having those forward 
diagnostics so that we can find out very quickly that we have 
an outbreak and again, with a very highly contagious virus like 
foot and mouth disease, it can spread explosively so it's very 
important to get your arms around it as fast as you can.
    Mr. Moran. Does that capability currently exist in Kansas 
to do the test?
    Mr. Jaax. If we had the reagents we could do it.
    Mr. Moran. Thank you very much, panel.
    Mr. Horn. I just have a couple of questions here. 
Throughout some of your testimony you talked about the West 
Nile. Can you define that for me, Mr. Jaax?
    Mr. Jaax. West Nile virus is a viral disease that 
originated in sub-Saharan Africa. It is co-anodic, which means 
it affects both animals and man. I think it's a great example 
of those crossover diseases that we would be concerned about 
that would go beyond just human disease or just animal 
diseases. We have vectors in this part of the country, all 
across the country and those vectors are, in this case, would 
be mosquitoes that could transfer and serve as reservoirs for 
the disease. You know, not each foreign animal disease or each 
bioterrorism event would have to be an outbreak event. It could 
be a much more insidious disease, like this one, and there are 
clearly other diseases out there that would serve as a useful 
model, but West Nile has become endemic in the United States. 
It was not found here before, I believe, the last 2\1/2\ years.
    One of the things that's interesting about West Nile, in my 
view, is the current lack of meaningful communication between 
the veterinary public health community and the traditional 
public health community. This disease was recognized by a 
veterinarian pathologist in New York sometime before the 
official diagnosis was made and with a co-anodic agent they may 
show up in animal populations prior to their manifestation in 
human populations, so it's important that we build that linkage 
of our public health infrastructure, which I think is a very 
positive step associated with the September 11th event as far 
as our national public health is concerned.
    Mr. Horn. How does that get transmitted from Africa to New 
York City and is it a food?
    Mr. Jaax. No. Well, they don't know how West Nile got here 
and there's all kinds of speculation you could make regarding 
it. May very well have come with someone who was inflicted, 
with some person because what happens with the disease is that 
a mosquito would bite an infected animal or person and then 
would then again transmit that to another person or to an 
animal.
    Mr. Horn. Is that what is going on in Louisiana?
    Mr. Jaax. Absolutely. Yes, sir.
    Mr. Horn. Now, Texas presumably is No. 1 in cattle. Has 
anything happened as a result of all this?
    Mr. Jaax. With West Nile?
    Mr. Horn. Yes, or others like that.
    Mr. Jaax. Well, there are clearly diseases that would have 
the same sort of mechanism but those are, luckily, the most 
severe ones we don't have in this country that would affect 
cattle. To my knowledge, West Nile is not a serious pathogen in 
food animals. It is a serious horse pathogen and people who 
have horses are right to be concerned about that and it is a 
human pathogen but again, it's not a significantly serious 
disease unless you are one of the unfortunate people who 
happens to get it.
    Mr. Horn. Or your horses.
    Mr. Jaax. Absolutely.
    Mr. Horn. I'm curious about Texas now. Everybody says they 
have the most cattle. Then there's an argument here on who is 
two and three.
    Mr. Jaax. We're right in there somewhere.
    Mr. Horn. Well, is Nebraska No. 2 and then Kansas three or 
is it Kansas two and Nebraska three? It's like the football 
game. We've got the coverage now.
    Mr. Jaax. I would defer to Mr. Teagarden on that.
    Mr. Horn. Well, I would like to get that figured out just 
for the Guinness records.
    Mr. Moran. I'm probably the one who could answer, Mr. 
Chairman. I'm not under oath.
    Mr. Horn. And you will say?
    Mr. Moran. Kansas.
    Mr. Horn. I want to just, Larry, before you leave, just if 
you don't mind, take the oath.
    [Witness sworn.]
    Mr. Horn. Any other questions? Well, it's a wonderful panel 
we have had here who have a lot of scientific knowledge and 
that's a good thought. Thank you very much for coming.
    We have one last panel and that is Otto Maynard, President 
and Chief Executive Officer of the Wolf Creek Nuclear Operating 
Corp.; Kevin Stafford, Special Agent in charge of the Kansas 
City Field Office, Federal Bureau of Investigation; Patricia 
Dalton, Strategic Issues, U.S. Office, and Richard Hainje, 
Director, Region 7.
    Let's start here with Mr. Otto Maynard, president and chief 
executive officer of the Wolf Creek Nuclear Operating Corp.
    Mr. Maynard. Good afternoon, Mr. Chairman.
    Mr. Horn. When we call on you, your whole written 
presentation goes in the record at this point and we would like 
you to summarize it.

STATEMENT OF OTTO MAYNARD, PRESIDENT, CHIEF EXECUTIVE OFFICER, 
               WOLF CREEK NUCLEAR OPERATING CORP.

    Mr. Maynard. Thank you very much. My name is Otto Maynard, 
President and Chief Executive Officer of Wolf Creek Nuclear 
Operating Corp. We operate the Wolf Creek Nuclear Power Station 
near Burlington in Coffey County for three of our owners, which 
is KG&E, a Westar Energy Co., Kansas City Power and Light, a 
Great Plains Energy Co., and Kansas Electric Power Cooperative. 
I'll start out by pointing out that I am not a government 
agency. I know that for sure because I pay taxes and fees 
rather than receiving taxes and fees, but to be successful, I 
have to interact and coordinate with a number of local, State 
and Federal agencies.
    Prior to September 11, 2001, all the nuclear power plants 
had professional security forces in place. At Wolf Creek we had 
at that time, still have a very highly trained, well armed 
security force. Many of the security officers are ex-military, 
ex-law enforcement and we exercise them in a number of 
different scenarios to provide the protection for our plant 
against any type of attack that might be conceived.
    The other thing that we had prior to September 11th was an 
emergency plan. We are required to have an emergency plan. That 
plan provides for the overall communication, coordination and 
response to any type of event or issue affecting Wolf Creek 
that could have some potential implication on the health and 
safety of the public. That was all in place prior to September 
11th. After September 11th, we further enhanced the security by 
adding additional security officers, additional patrols and 
many other things that were put in place to provide heightened 
awareness and heightened security force. We got excellent 
cooperation from the local sheriff, Kansas Highway Patrol, 
Kansas National Guard and since September 11th we have also had 
excellent cooperation with the U.S. military. A number of 
exercises, round table discussions, scenarios have been played 
out so that we very clearly understand what other roles and 
responsibilities are, what the roles and responsibilities of 
other agencies and what the response capabilities are and 
exactly how we would utilize each other's resources in the 
event there was something in the way of a terrorist attack 
potentially impacting Wolf Creek.
    I would also like to acknowledge that after September 11th 
we got excellent cooperation from a number of Federal agencies. 
Of course, the Nuclear Regulatory Commission. You know, Region 
IV of the U.S. Nuclear Regulatory Commission is the lead 
Federal agency in issues affecting Wolf Creek and they provided 
us with excellent communication throughout this last year, 
provided us information that we needed to be aware of and in 
making sure that we were doing the things that were prudent in 
protecting the health and safety of the public. Also had 
excellent cooperation from a number of other agencies; KBI, the 
FBI, the FAA, a number of agencies, some of which we had not 
coordinated or worked with that much before.
    One of the reasons I believe it was easy for us to 
establish some relationships, to get this level of cooperation 
is because of the emergency plan that we had in place for 
issues potentially affecting Wolf Creek. That plan provides, as 
I said before, for coordination and communication, a common 
level of threat assessment, so to speak, so that everybody 
understands nationwide what level of issues that we may be 
talking about and everybody can understand what the roles and 
responsibilities are with already established communications so 
that we knew who to talk to. We have facilities in place at 
various locations so that the coordination can occur so that 
each agency can do their own. I want to make it clear that 
events or issues affecting Wolf Creek, that we do not direct 
Federal, State or local agencies. Our primary responsibility is 
taking care of the plant and in taking care of whatever the 
issue is that may be affecting that and providing high quality 
time and communication and recommendations to the local, State 
and Federal agencies so that they can perform their role in 
also protecting the health and safety of the public.
    One last item I want to touch on, the one area that has 
been some confusion since September 11th gets into the funding. 
Of course, everyone would like to have increased security, 
increased availability of a lot of things. These do cost money 
and at times there were issues about who pays for that such 
that the National Guard, or whoever, was able to pay their 
folks and take care of that. I believe it's imperative that the 
burden of funding and sharing of that cost needs to be equally 
distributed among us all because the atacks from terrorists are 
against the American people, all of us and our way of life, not 
just a different industry or a different city and I believe 
it's important that the burden of that be shared. If it is not 
equally shared, then the terrorists have the ability to control 
our economy by picking on various segments, such that you are 
no longer able to have free competition. Again, I appreciate 
the opportunity and glad to answer questions.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Maynard follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.058
    
    [GRAPHIC] [TIFF OMITTED] T8193.059
    
    [GRAPHIC] [TIFF OMITTED] T8193.060
    
    Mr. Horn. Now we have Kevin Stafford, special agent in 
charge of Kansas City Field Office for the Federal Bureau of 
Investigation.

 STATEMENT OF KEVIN STAFFORD, SPECIAL AGENT IN CHARGE, KANSAS 
       CITY FIELD OFFICE, FEDERAL BUREAU OF INVESTIGATION

    Mr. Stafford. Good afternoon, Chairman Horn, Congressman 
Moran and guests. It's an honor to appear before you today to 
discuss the issue that is being undertaken by the FBI and law 
enforcement community in general in connection with prevention 
of terrorism and related threats posed by incendiary, 
biological, chemical or nuclear agents.
    By way of background, Kansas City Field Office 
investigative territory encompasses an area of approximately 
650 miles from just east of Jefferson, Missouri to the west 
border of Kansas and includes approximately 865 law enforcement 
entities. This entire area is protected by approximately 134 
FBI agents and 102 support personnel. With this vast geographic 
area and significant differences in crime problems, effective 
law enforcement levels requires leveraging personnel through 
mutual cooperation and assistance. In this regard, we have 
started the Heart of America Joint Task Force in September of 
this past year to address and prevent acts of terrorism. The 
task force has 18 participating agencies with 34 full-time 
investigators. While oversight and intelligence is focused in 
Kansas City, the task force includes investigators physically 
located in Topeka, Garden City, Wichita as well as Jefferson 
City and Springfield, Missouri. Additionally, an executive 
board made up of chief law enforcement executives from the 
Federal, State, county and municipal agencies has been 
established and provide a forum for the exchange of 
intelligence and to provide guidance regarding policy matters 
and direction of the task force.
    To facilitate the exchange of sensitive or classified 
information, security clearances have been provided to all 
members of the executive board. The Joint Terrorism Task Force 
is also supported by the Kansas Domestic Terrorism Working 
Group and Missouri Terrorism Working Group, which were formed 
in 1997 for the purpose of sharing timely information regarding 
terrorism. These groups are comprised of approximately 50 
State, county and local law enforcement agencies. With respect 
to combating terrorism, the Kansas City office, with the 
cooperation and support of 14 bomb squads, form the Kansas/
Missouri Bomb Technician Working Group. Given the expenses 
associated with equipping individuals in this area, this group 
is specifically organized to share specialized tools, training 
and intelligence regarding terrorist groups and devices. I'm 
proud to note this group is nationally recognized and has 
provided services to the National Institute of Justice, Office 
of Science and Technology and the Combating Terrorism 
Technology Support Office, Technical Support Working Group in 
testing and evaluating a new incendiary device disrupter system 
and is presently assisting in the development or robotic 
disarming technology.
    Kansas City Field Office has and continues to conduct 
periodic training. Since December of the past year, we have 
provided and participated in 32 training events with respect to 
preparedness or potential terrorist acts and to unified 
response from law enforcement. Recently the Kansas City office 
was selected as one of five sites for a regional computer 
forensics laboratory which has been named The Heart of America 
Regional Computer Forensic Laboratory, a partnership to any 
FBI, Federal, State and municipal law enforcement agencies to 
provide examination of criminal investigations and 
prosecutions. By combining the extraordinary talents and 
resources of law enforcement agencies at all levels, the 
ability to investigate acts of terrorism will be significantly 
enhanced.
    The Kansas City Field Office has also been selected as one 
of only 20 sites for the initiation and development of Cyber 
Crimes Task Force. The establishment of this task force would 
be a powerful tool in the fight against terrorism, white-collar 
crime, violent crime, and national infrastructure protection 
matters. The Kansas City Field Office has an active InfraGuard 
program where special agents maintain liaison with the owners 
and operators of the Nations critical infrastructures.
    Mr. Chairman, my remarks have been brief and have been 
meant to merely highlight the counter terrorism initiatives 
undertaken by the Kansas City Field Office and law enforcement 
within Kansas and the Western District of Missouri. While the 
FBI, both nationally and within the Kansas City Field Office, 
have significantly increased our resources toward protecting 
our country against further terrorist attacks, the FBI cannot 
do such alone. As you can see, after the terrible events of 
September 11th, the law enforcement community has risen to the 
occasion by providing significant, tangible, real-time 
cooperation and communication throughout the State of Kansas 
and the Western District of Missouri. Through these efforts we 
have established a well-developed and coordinated law 
enforcement capability to address and prevent acts of 
terrorism. However, despite our best efforts, it is impossible 
for a law enforcement agency to guarantee to its legislative 
oversight that future terrorism will not occur. What we can 
guarantee is that men and women of the FBI, the Kansas City 
Field Office, and our law enforcement partners throughout 
Kansas and Missouri are serious and devoted to the role of 
protecting our area and our Nation against future hostilities. 
This concludes my remarks. Thank you, sir.
    Mr. Horn. Thank you, and we have had very good 
relationships with the FBI in both Y2K and computers within the 
executive branch and now terrorism so thank you for all your 
doing. We appreciate it.
    [The prepared statement of Mr. Stafford follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.061
    
    [GRAPHIC] [TIFF OMITTED] T8193.062
    
    [GRAPHIC] [TIFF OMITTED] T8193.063
    
    [GRAPHIC] [TIFF OMITTED] T8193.064
    
    [GRAPHIC] [TIFF OMITTED] T8193.065
    
    [GRAPHIC] [TIFF OMITTED] T8193.066
    
    [GRAPHIC] [TIFF OMITTED] T8193.067
    
    [GRAPHIC] [TIFF OMITTED] T8193.068
    
    [GRAPHIC] [TIFF OMITTED] T8193.069
    
    [GRAPHIC] [TIFF OMITTED] T8193.070
    
    [GRAPHIC] [TIFF OMITTED] T8193.071
    
    [GRAPHIC] [TIFF OMITTED] T8193.072
    
    [GRAPHIC] [TIFF OMITTED] T8193.073
    
    [GRAPHIC] [TIFF OMITTED] T8193.074
    
    Mr. Horn. Now we've got Ms. Dalton, who is the strategy 
director for the General Accounting Office. The General 
Accounting Office is headed by the Comptroller General of the 
United States, Dave Walker. He's done a wonderful job and he's 
got a great crew and we always ask them to come to these 
hearings because we want them, since they have over 58 reports, 
and you can get it, just send them a letter and they have been 
into the terrorist bit for several years and so we want Ms. 
Dalton. There's always something we missed and that's why I 
always put you here. You have a broad picture on what should we 
have done that we didn't do.

   STATEMENT OF PATRICIA DALTON, STRATEGY DIRECTOR, GENERAL 
                       ACCOUNTING OFFICE

    Ms. Dalton. Thank you, Mr. Chairman, Congressman Moran. It 
is a pleasure to be here in Kansas to discuss these critical 
issues. The challenges posed by homeland security exceed the 
capacity and authority of any one level of government. 
Protecting the Nation against these unique threats calls for 
truly an integrated approach bringing together the resources of 
all levels of government and the private sector and we have 
certainly heard today many aspects of the roles and response of 
both State and local government. In my testimony today, I would 
like to focus on challenges facing us of establishing a 
leadership structure, defining roles, developing performance 
goals and measures and deploying the appropriate tools to best 
achieve and sustain national goals.
    President Bush has taken a number of important steps to 
enhance the country's homeland security efforts, including 
creating the Office of Homeland Security, proposing the 
Department of Homeland Security and most recently putting forth 
a national strategy. Both the House and the Senate have worked 
diligently on these issues and currently are deliberating many 
current proposals related to homeland security. The proposals 
to create a statutorily based Department of Homeland Security 
hold promise to strengthen leadership in this area and 
specifically call for coordination and collaboration with State 
and local governments and the private sector. Many aspects of 
the proposed consolidation of homeland security programs are in 
line with previous GAO's recommendation and show promise toward 
reducing fragmentation and improving coordination, both among 
levels of government and the private sector. For example, the 
new department would consolidate Federal programs for State and 
local planning and preparedness from several agencies and place 
them under a single organizational umbrella. Based on prior 
work, we believe that the consolidation of some homeland 
security functions makes sense and will, if properly organized 
and implemented over time, lead to more efficient, effective 
and coordinated programs, better intelligence sharing and more 
robust protection of people, borders and critical 
infrastructure.
    However, implementation of a new department will be an 
extremely complex task, and in the short term, the magnitude of 
the challenges that the new department faces will clearly 
require substantial time and effort, and as the Comptroller 
General has previously testified, will take additional 
resources to make it effective in the short term. The proposals 
also may result in other concerns such as maintaining a proper 
balance in programs with dual purpose missions, whether they be 
public health, research activities or food safety.
    The recently issued National Strategy for Homeland Security 
provides additional clarification of roles and 
responsibilities. It lays out four strategic objectives; 
preventing terrorist attacks within the United States, reducing 
vulnerability to terrorism and minimizing damage and recovery 
from attacks, the strategy provides for strong State and local 
roles. However, challenges will remain in defining appropriate 
inter-governmental roles. Achieving national preparedness 
hinges on creating effective and real partnerships, not with 
Federal. Decision makers have to balance national interest of 
prevention and preparedness with unique needs and interests of 
local communities. A one-size-fits-all Federal approach just 
simply will not work. Our fieldwork at Federal agencies should 
be conceived as national, not Federal in nature. And at local 
governments for this commitment signifies a shift is 
potentially underway in the definition of roles and 
responsibilities between Federal, State and local governments. 
These changes may have far reaching consequences for homeland 
security and accountability to the public.
    The challenges posed by the new threats are prompting 
officials at all levels of government to rethink long-standing 
divisions of responsibility for such areas as fire safety, 
services, infrastructure protection and airport security. In 
many areas proposals under consideration would impose a 
stronger Federal presence in the form of new national standards 
or assistance. For instance, Congress is currently considering 
mandating new vulnerability assessments and protective measures 
on local communities for drinking water facilities. Another 
area which we heard about today, first responders, reflects a 
dramatic upturn in the magnitude and role of the Federal 
Government in providing assistance and standards for fire 
service training, equipment and exercises.
    Governments at the local level are also moving to rethink 
roles and responsibilities to address the unique scale and 
scope of the contemporary threats from terrorism. In our case 
studies, five metropolitan areas, we have identified several 
common forms of regional cooperation and coordination. These 
include special task force or working groups, improved 
collaboration among other public health entities, increased 
planning, mutual aid agreements and communications 
improvements.
    Performance goals and measures are also needed in homeland 
security programs. As the national strategy and related 
implementation plans evolve, we would expect clearer 
performance expectations to emerge. Given the need for a highly 
integrated approach to the homeland security challenge, 
national performance goals and measures may best be developed 
in a collaborative way involving all levels of government and 
the private sector.
    Communication is one example of an area in which standards 
have not yet been developed, and other first responders have 
continuously highlighted that standards are needed. That's what 
we have heard today. The national strategy calls for the 
proposed Department of Homeland Security to develop such a 
national communication plan to establish protocols, processes 
and the standards for technology acquisition.
    Finally, the choice and the design of the policy tools the 
Federal Government uses to engage and involve other levels of 
government in the private sector in enhancing homeland security 
will have important consequences for performance and 
accountability. Governments have a variety of policy tools, 
including direct grants, regulations, tax incentives, and 
information-sharing mechanisms, available to motivate other 
levels of government or the private sector to address security 
concerns. The choice of policy tools will affect sustainability 
of efforts, accountability and flexibility, and targeting of 
resources.
    In conclusion, although we have taken a number of important 
steps, many challenges do remain. Our government partnerships 
will be critical to meeting those challenges. Thank you, Mr. 
Chairman.
    Mr. Horn. Thank you.
    [The prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.075
    
    [GRAPHIC] [TIFF OMITTED] T8193.076
    
    [GRAPHIC] [TIFF OMITTED] T8193.077
    
    [GRAPHIC] [TIFF OMITTED] T8193.078
    
    [GRAPHIC] [TIFF OMITTED] T8193.079
    
    [GRAPHIC] [TIFF OMITTED] T8193.080
    
    [GRAPHIC] [TIFF OMITTED] T8193.081
    
    [GRAPHIC] [TIFF OMITTED] T8193.082
    
    [GRAPHIC] [TIFF OMITTED] T8193.083
    
    [GRAPHIC] [TIFF OMITTED] T8193.084
    
    [GRAPHIC] [TIFF OMITTED] T8193.085
    
    [GRAPHIC] [TIFF OMITTED] T8193.086
    
    [GRAPHIC] [TIFF OMITTED] T8193.087
    
    [GRAPHIC] [TIFF OMITTED] T8193.088
    
    [GRAPHIC] [TIFF OMITTED] T8193.089
    
    [GRAPHIC] [TIFF OMITTED] T8193.090
    
    [GRAPHIC] [TIFF OMITTED] T8193.091
    
    [GRAPHIC] [TIFF OMITTED] T8193.092
    
    [GRAPHIC] [TIFF OMITTED] T8193.093
    
    [GRAPHIC] [TIFF OMITTED] T8193.094
    
    [GRAPHIC] [TIFF OMITTED] T8193.095
    
    [GRAPHIC] [TIFF OMITTED] T8193.096
    
    [GRAPHIC] [TIFF OMITTED] T8193.097
    
    [GRAPHIC] [TIFF OMITTED] T8193.098
    
    Mr. Horn. Our last presenter is Richard Hainje, Regional 
Director of the Federal Emergency Management Agency. Thank you 
for coming again. We have had you in Nebraska.

  STATEMENT OF RICHARD HAINJE, DIRECTOR, REGION VII, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Hainje. We didn't have that discussion about Nebraska 
versus Kansas at that meeting. Thank you, Chairman Horn. Thank 
you, Congressman Moran, for this opportunity. I'm pleased to be 
with you here today to discuss the challenges facing emergency 
managers and first responders in their efforts to be better 
prepared to respond to acts of terrorism. FEMA is a Federal 
agency responsible for leading the Nation in preparing for and 
responding to and recovering from disasters. The Federal 
Response Plan forms the heart of our management framework and 
lays out the process by which inner agency groups work together 
and respond as a cohesive team to all types of disasters. It is 
successful because it's built upon existing professional 
disciplines, delivery systems and relationships among the 
participating agencies. The National Strategy for Homeland 
Security proposed by President Bush builds on the experience of 
the Federal Response Plan to develop one all-discipline, all-
hazard plan to cover events of national significance and 
clarify the roles and responsibilities of different levels of 
government.
    FEMA Region VII takes an active role in preparing the 
response to a terrorism event. It is our responsibility to 
coordinate Federal, regional and State terrorism planning 
training and exercise activities. Prior to September 11th, the 
President tasked the Director of FEMA with creating the Office 
of National Preparedness. The mission of the Office of National 
Preparedness is to provide leadership in coordinating and 
facilitating all Federal efforts to assist all State and local 
first responders and emergency management organizations with 
planning, training, equipment and exercises. To further these 
efforts, the President has requested $3.5 billion in the 2003 
budget to support first responder initiatives. These funds 
would help them plan, train, acquire needed equipment and 
conduct exercises in preparation for terrorist attacks and 
other emergencies. In the recent past 2002 supplemental, 
Congress provided FEMA with $100 million for State and local 
governments to update and enhance existing emergency operation 
plans. The funds for the planning initiative will be allocated 
to the States and other State level entities on the basis of 
population. These comprehensive plans will form the foundation 
for the work to be done in 2003 and prepare first responders 
for terrorist attacks. A unique challenge that a biological or 
chemical scenario would present for the first responder 
community emphasizes the need for effective planning. With a 
covert release of a biological agent, the first responders will 
be physicians or animal control workers instead of the 
traditional first responders with whom we have a long term 
relationship at FEMA.
    Across the government we are working to enhance our ability 
to detect biological attacks, better link to public health and 
emergency response communities, and train and equip traditional 
first responders to respond to bioterrorism. The President's 
proposal to create a Department of Homeland Security would 
strengthen the linkages that are critical to our capacity to 
respond to terrorism. Consequently, the structure of this newly 
proposed department recognizes that FEMA's mission and core 
competencies are essential components of homeland security. For 
this reason, Congress can continue to be assured that the 
Nation will be prepared for acts of terrorism and will 
coordinate its efforts with the entire first responder 
community.
    Terrorism creates tremendous challenges. In recent years we 
have made strives to increase cooperation between the various 
response communities. At FEMA, the creation of the Office of 
National Preparedness and our emphasis on training, planning, 
equipment and exercises will enable us to better focus our 
efforts and will help our Nation be better prepared for the 
future. The proposed Department of Homeland Security will 
integrate these capabilities into a broader whole that will 
help our Nation respond to the terrorist threat. Thank you, Mr. 
Chairman, and I would be happy to answer any questions.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Hainje follows:]

    [GRAPHIC] [TIFF OMITTED] T8193.099
    
    [GRAPHIC] [TIFF OMITTED] T8193.100
    
    [GRAPHIC] [TIFF OMITTED] T8193.101
    
    [GRAPHIC] [TIFF OMITTED] T8193.102
    
    [GRAPHIC] [TIFF OMITTED] T8193.103
    
    [GRAPHIC] [TIFF OMITTED] T8193.104
    
    [GRAPHIC] [TIFF OMITTED] T8193.105
    
    [GRAPHIC] [TIFF OMITTED] T8193.106
    
    [GRAPHIC] [TIFF OMITTED] T8193.107
    
    [GRAPHIC] [TIFF OMITTED] T8193.108
    
    [GRAPHIC] [TIFF OMITTED] T8193.109
    
    Mr. Horn. Ms. Dalton, looking at your testimony, you noted 
the following: ``In addition, as you know, the 
Intergovernmental Law Enforcement Sharing Act of 2001, (H.R. 
3483),'' which I had sponsored, the last I knew Mr. Chambliss 
proposal was going through judiciary and I don't know where any 
of this is right now. All I do know is that the FBI and local 
law enforcement need that authority in order to get 
intelligence sharing and maybe there's some way we can get the 
FBI or whatever or the Comptroller General to say hey, it's 
about time to get this rolling, if it isn't rolling. So I'm not 
sure exactly what they are doing but we need to do it.
    Ms. Dalton. Certainly, Mr. Chairman. In the proposals for 
the new Department of Homeland Security, I believe all of them 
do provide for an intelligence sharing component. How that 
finally is structured, obviously the verdict is still out, but 
I think there's a broad recognition that intelligence sharing 
is going to be critical to defending our country and our people 
against terrorist attacks.
    Mr. Horn. So that's sitting in the Senate right now.
    Ms. Dalton. It currently is. My understanding, it has gone 
through the Senate Governmental Affairs Committee and scheduled 
to go to the floor when the Senate returns.
    Mr. Horn. Thank you. Gentleman from Kansas.
    Mr. Moran. Mr. Chairman, thank you. Mr. Maynard, have 
Federal regulations involving the security of nuclear power 
plants changed since September 11th?
    Mr. Maynard. Yes. The regulations themselves have not. We 
have been issued orders that provide increased requirements, 
defined specific levels of numbers of people, types of things 
we had to be able to defend against. That document itself is 
safeguarded so it's difficult to go into the details of that, 
but we did have--orders came that all nuclear power plants had 
to make some changes to their plans.
    Mr. Moran. Do you have an obligation to notify law 
enforcement of some event?
    Mr. Maynard. Yes, we do. In fact, at any suspicious event, 
we have communications in place where we do notify local law 
enforcement and also through the Nuclear Regulatory Commission 
it will be handled either by the FBI, whichever agency is most 
appropriate for that type of item. In fact, one of the things 
talked about earlier is airplanes flying around and if there's 
any suspicious activity, a call is made and the response is 
quite rapid.
    Mr. Moran. Is there a no-fly zone over a nuclear power 
plant?
    Mr. Maynard. Yes and no. There is no longer a restricted 
area. For a short time there was a restricted area that was 
published that did not allow any type, any airplanes within a 
ten-mile radius. Now there is a notice to airmen out that 
notifies all pilots to not fly directly over any nuclear power 
plant or any other industrial structure, including other types 
of power plants as well and definitely no loitering around or 
sight-seeing around them.
    Mr. Moran. Mr. Hainje, FEMA, I asked earlier about the VA. 
Is there any working relationship between FEMA and the 
Department of Veteran's Affairs in regard to VA responding to 
emergencies?
    Mr. Hainje. I wouldn't classify myself as an expert on the 
background with the VA response, but the way the Federal 
Response Plan works is in any emergency and prior to any 
emergency, for planning purposes, we have emergency support 
functions. One of those is Disaster Medical Services and we 
work with the public health as the lead on that and certainly 
they would draw in and they work with their partners in the VA. 
So basically as a Federal agency response under the Federal 
Response Plan, Public Health would be the lead on the medical 
side and then they would draw in other Federal resources to 
help and assist.
    Mr. Moran. Mr. Stafford, can you help me at all prioritize 
where we, at least from a law enforcement perspective, ought to 
be focussing our efforts at terrorist prevention? Congress, as 
I said earlier, spends a lot of time on airport and airline 
security. We have talked a bit about nuclear power plants. Mr. 
Horn asked about the public water supply. Is there--certainly 
we had a long discussion on the introduction of biological 
agents into agriculture. Is there any kind of way to prioritize 
where law enforcement ought to be focussing its efforts?
    Mr. Stafford. As you alluded to earlier, fortunately Kansas 
has a high coal electric production capability. We have 
tremendous telecommunications, transportation, water, 
financial. So most of what we spend our time on is looking at 
intelligence that we have collected, analyzing it and 
disseminating it to the appropriate regulatory agencies, but 
unfortunately, I can't provide anymore insight than anybody 
else. The Bureau does not get into providing physical security. 
Most of the nuclear power facilities--as a matter of fact, 
theirs is so good at Wolf Creek, I was denied access for about 
15 minutes when myself and a SWAT team went out there for a 
tour. They have an outstanding security force. Unfortunately, 
that's not necessarily consistent among all other areas like a 
coal production plant I went to in Garden City. Their security 
was not quite anywhere near the standards of Mr. Maynard's so 
there is not the consistency probably there should be among the 
different types of key assets within----
    Mr. Moran. Have you increased your intelligence 
capabilities?
    Mr. Stafford. We have primarily utilized the Joint Task 
Force on Terrorism. We traditionally only had access to those 
intelligence basis within our unit. As I indicated, we have 18 
different agencies. Some of those agencies have actually 
brought their computers into our space so we can gain immediate 
access through their employees and our space. Other agencies, 
all we have to do is make a phone call and we can gain access 
into their intelligence systems.
    Mr. Moran. There's been some criticism, suggestion about 
the inability of the FBI or the failure of the FBI to 
communicate from region to region. Is that different today than 
if it was a problem, is it less of a problem?
    Mr. Stafford. It's definitely less of a problem through the 
joint leaders of task forces.
    Mr. Moran. Mr. Maynard, to give you the chance, it does 
seem like perhaps we have highlighted nuclear power generation. 
Is there anything you would like to point out about others who 
generate electricity as well, kind of important things we ought 
to be aware of and not just nuclear that would be a problem?
    Mr. Maynard. Well, I believe as a Nation we have to be 
careful that we don't get focused on one industry or one 
activity and put all our efforts on that. Nuclear power plants 
certainly get highlighted as targets, but it's also one of the 
best defended, most robust-built facilities around. We have 
other infrastructure items and other industries; petro 
chemical, pharmaceutical. There's a lot of different other 
industries that may not have that same level of security and 
for a Nation to focus totally on one that may already have it 
and not focus on some of the others, I think, would be a 
mistake so I think we need to take a big picture look.
    Mr. Moran. Thank you, sir. Thank you all.
    Mr. Horn. Ms. Dalton, in your testimony you say that in 
leadership by statute will ensure among others things that it's 
held accountable to Congress and the American people but 
without performance measures such as national standards to 
ensure that all first responders receive proper training and 
equipment, how could anyone determine whether the department is 
doing a good job despite all the PR and so forth, so what is 
your feeling on that on getting the standards in there?
    Ms. Dalton. I think establishing performance standards, 
performance goals and performance measures is certainly one of 
the critical next steps that we need to take as a country to 
ensure that we have established clearly what we want to 
accomplish, how we want to accomplish it and ultimately 
determine whether or not we have in fact accomplished it. By 
forming the Department of Homeland Security, certainly that 
provides a focal point in leadership and does enhance 
accountability to that extent, but it's important to take it to 
the next step which is clearly stated in the National Strategy 
of establishing performance measures and standards and then as 
I said, holding ourselves accountable to them. So, that will be 
the next step, and it's part of an evolving response to the 
events of September 11th.
    Mr. Horn. Mr. Hainje, you fit right in there because you 
and GAO agree that national standards are necessary if we're 
going to have a successful national homeland security strategy. 
I remember Mr. Albaugh, the Director of FEMA, has also stressed 
the importance of nationwide standards. Is FEMA working on 
setting these standards and if so, how can we see them?
    Mr. Hainje. I think we are working for the guarantee of 
minimum capability at each State and some of the issues that 
will be resolved there will be as we receive plans from the 
States under the planning grant that are coming up, plans that 
will be more elaborate as to how they intend to proceed within 
their States and then try to give guidance as that process goes 
along. Well, the Office of National Preparedness was given the 
issue, if you will, of supporting the development of 
comprehensive response plans that hopefully will help with some 
standardization. There also has been assignment to FEMA. Ron 
Miller, the Chief Information Officer of FEMA is being asked to 
work on standardization and interoperability of communications 
equipment and that's an issue that keeps coming up and 
something that I worked with in my former life also, where we 
tried to make a State-wide compatible interoperable system so 
Project Safecom is something that numerous agencies at the 
Federal level are working together on and Ron Miller from FEMA 
is the lead on that. And then also trying to improve and make 
even more standard the training that is provided to first 
responders and I guess those are some of the areas where we're 
trying to work a little bit toward standardization.
    Mr. Horn. Thank you. I'm now going to thank the people that 
really put this together and it isn't easy to have long 
distances and everything else. The staff director, chief 
counsel of the subcommittee is Mr. Russell George, which will 
probably be one of his last ones because he's been confirmed to 
be the Inspector General of the agency; Dave Bartel, is he 
here? Chief of Staff. There he is. He's the gentleman that 
looks like he's Secretary of State. For you Kansans, he is a 
Kansan and he was Nancy Kassebaum's Chief of Staff and the 
minute she retired, pulled him back out of the Senate and I 
think we can probably make a few comments about foot and mouth 
disease in terms of Senate versus the House and we were 
delighted to have Dave come over and be my Chief of Staff. He's 
done a great job for Kansas and California. Now, of course, I 
come from Long Beach, California where it's called Iowa by the 
Sea and there was a lot of Kansans in there, too, at the turn 
of the century and then to my left here and your right is 
Bonnie Heald, the Deputy Staff Director and the gentleman 
trying to get all microphones going and everything is Chris 
Barkley, the assistant to the subcommittee. Michael Sazonov is 
not with us today but he's the staff assistant also for this; 
and Mr. Moran's staff were very helpful, Kip Peterson and 
Travis Murphy; and the person that really was very kind to us 
in terms of this auditorium and the Eisenhower situation is 
Daniel Holt and his staff and I had a chance to talk with him 
yesterday for a couple of hours and if there was ever an 
encyclopedia of modern history in the second world war and the 
General Eisenhower so we appreciate--Dan, are you out there 
somewhere? This is a wonderful area and auditorium and I gather 
the former president, of course, will be here to announce all 
that and our court reporter is Kathy Bonfiglio. We thank you 
all for that. Jerry, in particular, we're delighted. I know 
Members of Congress this time are out usually campaigning. I 
would hope he doesn't have to campaign very much.
    Mr. Moran. Always, sir.
    Mr. Horn. That's right. So thank you very much and we're 
delighted to be here. We're adjourned.
    [Whereupon, at 1:01 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8193.110

[GRAPHIC] [TIFF OMITTED] T8193.111

[GRAPHIC] [TIFF OMITTED] T8193.112

[GRAPHIC] [TIFF OMITTED] T8193.113

[GRAPHIC] [TIFF OMITTED] T8193.114


</pre></body></html>
